<html>
<title> - H.R. 2016, NATIONAL LANDSCAPE CONSERVATION SYSTEM ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                     H.R. 2016, NATIONAL LANDSCAPE

                        CONSERVATION SYSTEM ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, June 7, 2007

                               __________

                           Serial No. 110-29

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 -----

                    U.S. GOVERNMENT PRINTING OFFICE
36-021                      WASHINGTON : 2008
_____________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001





                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel

                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Rick Renzi, Arizona
Dan Boren, Oklahoma                  Stevan Pearce, New Mexico
John P. Sarbanes, Maryland           Henry E. Brown, Jr., South 
Peter A. DeFazio, Oregon                 Carolina
Maurice D. Hinchey, New York         Louie Gohmert, Texas
Ron Kind, Wisconsin                  Tom Cole, Oklahoma
Lois Capps, California               Dean Heller, Nevada
Jay Inslee, Washington               Bill Sali, Idaho
Mark Udall, Colorado                 Doug Lamborn, Colorado
Stephanie Herseth Sandlin, South     Don Young, Alaska, ex officio
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio

                                 ------                                

                                CONTENTS

                               ----------                              
                                                                   Page

Hearing held on Thursday, June 7, 2007...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     5
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California, Statement submitted for the record..........    20
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1

Statement of Witnesses:
    Bono, Hon. Mary, a Representative in Congress from the State 
      of California..............................................     7
        Prepared statement of....................................     8
    Daly, Elena, Director, National Landscape Conservation 
      System, Bureau of Land Management, U.S. Department of the 
      Interior...................................................    11
        Prepared statement of....................................    12
    Gray, Randy, Former Mayor, Great Falls, Montana..............    35
        Prepared statement of....................................    37
    Meadows, William H., President, The Wilderness Society.......    21
        Prepared statement of....................................    23
    Moe, Richard, President, The National Trust for Historic 
      Preservation...............................................    26
        Prepared statement of....................................    28
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia..........................................     9
        Prepared statement of....................................    10
    Williams, Cindy Deacon, M.S., Senior Scientist and Director 
      of Aquatic Science and Education Programs, National Center 
      for Conservation Science & Policy..........................    29
        Prepared statement of....................................    31
    Williams, Orie, Chief Executive Officer, Doyon Limited.......    38
        Prepared statement of....................................    40

Additional materials supplied:
    Butcher, Trevis M., Missouri River Land Users, Winifred, 
      Montana, Statement submitted for the record................     2
    Coalition of 47 organizations, including American Hiking 
      Society, American Rivers, American Society of Landscape 
      Architects, et al., Letter submitted for the record........    24
    Otley, Fred I., Diamond, Oregon, Letter to Senator Wyden, 
      Senator Smith, and Congressman Walden submitted for the 
      record.....................................................    19


 LEGISLATIVE HEARING ON H.R. 2016, THE NATIONAL LANDSCAPE CONSERVATION 
                              SYSTEM ACT.

                              ----------                              


                         Thursday, June 7, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 4:01 p.m., in 
Room 1334, Longworth House Office Building, Hon. Raul Grijalva 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Lamborn, and 
Young.

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you. Let me call the Subcommittee on 
National Parks, Forests and Public Lands to this hearing on 
H.R. 2016, the National Landscape Conversation System Act. I 
would like to welcome everyone to today's hearing on the 
legislation I introduced, and also thank you for keeping up 
with us today. We originally scheduled, I think, two other 
times, and because of the markup that we had at the full 
committee, this hearing is now at this time. I appreciate and 
thank everybody.
    One of the witnesses, Mr. Trevis Butcher, had to catch a 
plane and will not be here with us, but his testimony will be 
obviously made part of the entire record.
    I would like to thank all the witnesses that are here for 
joining us today, for their time and effort to be here. Their 
insights will be very helpful as the Subcommittee considers 
this legislation.
    The National Landscape Conservation System exists on 26 
million acres across the western United States and it exists in 
the Bureau of Land Management regulations. The NLCS does not 
exist, however, in statute. H.R. 2016 will remedy that by 
providing a simple, permanent congressional authorization for 
this conservation system within BLM. H.R. 2016 is 
straightforward legislation, only three pages long. The bill 
does not alter the management of any existing unit, nor change 
the overall management of the system.
    The monuments, the NCAs, the wild and scenic rivers and 
other NLCS units will continue to be managed according to their 
enabling authority and other applicable laws. What this 
legislation does do is provide the system with a congressional 
stamp of approval, giving the NLCS the direction and backing to 
flourish in the years to come.
    We are well aware that the history of some of the units 
within the NLCS includes periods of controversy. Although many 
of the fears expressed at the time some of these units were 
designated never materialized, to reassure anyone who remains 
concerned, let me be clear. Nothing in this legislation 
increases Federal land ownership or regulation or impacts 
private land in any way. While we might support redesignations 
in the future, the bill does not include any new additions to 
the system.
    H.R. 2016 is less about acreage or management and more 
about the BLM and its mission. In the not too distant past, the 
first step in any effort to conserve BLM land was to transfer 
the land to the National Park Service. The purpose of H.R. 2016 
is to provide congressional recognition of BLM's effort to 
fulfill the conservation aspect of its multiple-use mandate by 
retaining and conserving these areas.
    The units of NLCS are indeed special places. We welcome 
BLM's effort to conserve them for present and future 
generations and are eager to support the agency in that effort 
through H.R. 2016.
    Mr. Grijalva. With that, I will turn to the Ranking Member, 
Mr. Bishop, for any opening comments he may have. Mr. Bishop.
    [The statement submitted for the record by Trevis Butcher 
follows:]

Statement submitted for the record by Trevis M. Butcher, Missouri River 
 Land Users (Speaking for more than 10,000 neighbors directly affected 
            by this proposed legislation)--Winifred, Montana

    Members of the Committee, I appreciate the opportunity to testify 
on H.R. 2016. I am going to restrict my testimony to address the 
impacts of this proposal regarding one of the specific Monuments 
included under the broad and monumental changes which this proposed 
legislation will impose through statute on rural Montana which I 
represent.
    I own a cattle ranch which neighbors the southern boundary of the 
Missouri River Monument. This ranch has been in our family since the 
region was settled in 1914. I am the fourth generation to operate it 
and the fifth generation is currently at home haying while I have 
journeyed more than 2,000 miles to present this committee with some 
insight into the issues which have continually been ignored by 
advocates of this massive government take-over of my neighborhood.
    The Missouri River National Monument designation was a last minute 
and poorly conceived Executive Order by former President Clinton in the 
final days of his Presidency. This designation under the Antiquities 
Act did not meet the basic criteria for designation under this Act. 
Secretary Babbitt and his supporters in conjunction with the BLM lied 
to the Montana citizens claiming it would meet the criteria. It was a 
general proclamation, without any defined boundaries, based on the 
premise of protecting a historic section of the Missouri River 
traversed by the Lewis and Clark Expedition. This section of the 
Missouri River had in fact been under Federal protection for forty 
years through the Wild and Scenic Act. It has been managed by the 
Bureau of Land Management (BLM) as a multiple use designation without 
problems emphasizing traditional agriculture usage, hunting, motorized 
boating, fishing, hiking, and other recreational uses. It is contingent 
to the Charles M. Russell National Wildlife Refuge which is the best 
example causing Montana citizens to oppose a proposed Monument. This 
proposed area has no need for ``preservation'' since it is maintained 
in much the same manor for the past 100 years.
    This was where the problems have begun which members of this 
Committee and Congress needs to consider during deliberation in this 
body. The Missouri River Monument boundaries were not planned with 
public input and were simply arbitrarily defined ``after the fact'' by 
the BLM to encompass 477,000 acres which includes 81,000 acres of 
private property as well as over 40,000 acres of School Trust Land 
managed by the State of Montana to fund the educational needs of our 
students. We could live with Monument boundaries 1/4 to 1/2 mile from 
the center of the River which respected private property rights and 
would protect the aesthetic view of the rim of the river corridor from 
any visual obstructions. It is simply not acceptable to control 
property ten to forty miles or more from the River Corridor ``being 
protected'' by the intent of this proposed legislation.
    There are 120 families with privately owned land with in this 
proposed National Monument which is direct violation of the Antiquities 
Act restricting inclusion of private property in a monument 
designation. These family ranches face serious economic impacts to 
their operations as a result of the BLM's proposed draconian 
restrictions on traditional ranching practices. Of even more concern is 
the financial impact to all areas of Montana government. Approximately, 
46% of the State of Montana is already government land so only 54% of 
this 4th largest State provides the tax base to support local and state 
government services. The six counties directly impacted by this 
Monument and proposed restrictions already have large amounts of 
federal government land and the PILT payments periodically authorized 
by Congress does not adequately replace property taxes for our schools 
and local government services.
    This designated Monument is also located in the middle of a large 
proven natural gas field with existing producing wells and a pipe-line 
on private property scattered throughout the Monument designation. I 
must call the Committee's attention to the serious economic liability 
to the State School Trust Fund as well as to the private property 
owners within the Monument who will be unable to benefit from natural 
gas development thirty and forty miles from the ``Scenic River 
Corridor.'' In contrast private property south of the designated 
Monument (including my own) is scheduled for expansion of the gas 
development during the fall of 2007 which is in response to critical 
National energy requirements. The large gas field within the Monument 
boundaries is being ignored costing Montana schools over $200,000 per 
day and twice that amount to the 120 private property owners within the 
Monument boundaries plus others who hold ``split estate'' mineral 
rights. I cannot emphasize enough that this legislation will grossly 
affect our basic property rights which is fundamental to our 
traditional American political and economic system.
    The Legislation before this Committee would codify bad policy 
leaving no room for common sense management decisions addressing local 
needs. This legislation gives the BLM statutory authority to implement 
policies and regulations which establishes power through their 
management of scattered government owned land, over huge areas of 
private property. Beyond the effects on the residents within the 
Monument, the rest of the citizens of this region will also be severely 
impacted. Under proposed BLM rules for Monument Management, the BLM is 
proposing closure of over half the existing access roads to private 
property and traditional recreational opportunities within the Monument 
boundaries. This is continuation of Federal policies resulting in 
Montana residents having lost 2/3 of access and trails during the last 
decade resulting from ``east coast'' mandated policies orchestrated 
within the Beltway and bowels of New York City by special interest 
groups lacking any concept of life in Montana.
    For over 100 years this has been a continuous ranching economy with 
large fields of grain which has been farmed since the area was first 
homesteaded in 1910-1914 in addition to the thousands of cattle which 
graze throughout the area. The river bottoms, until the past 20 years 
when the BLM traded some of the land to other areas, was highly 
productive irrigated alfalfa hay land. Now there is still a few 
thousand acres of hay-land remaining with the rest managed by the BLM 
which has consequently reverted to desolate, weed infested habitat 
resulting in the traditional Elk and deer populations migrating from 
the Monument area on to adjoining private property in search of healthy 
ecosystems leaving the grossly mismanaged government property.
    I want to emphasize, that contrary to the radical environmentalists 
who claim ``to be saving wild lands for the future,'' every inch of the 
``primitive area'' has had cattle grazing, ranchers riding horses, 
hunters and recreationists traversing the entire area for the last 100 
years. Members of Congress, this is a thriving area which is home to 
120 ranches which the proponents are proposing to force to leave the 
area with their livestock and community economic base! This translates 
into the loss of 9,200 mother cows translating into a 25 million dollar 
regional impact.
    I want to call the committee members' attention to the unsettled 
case of former Congresswoman Helen Chenoweth in the U.S. Court of 
Claims which has declared that there is significant economic value to 
those grazing federal managed land. If applied to the Monument, this 
could have a ``fee title'' value of $4,000 to $6,000 per animal grazing 
unit. This places the total grazing values at approximately $60 Million 
and far higher value on water rights held by the Monument's in-holders. 
This has yet to be addressed by the management plans proposed by the 
BLM and could add a significant liability to the federal government.
    The people promoting the Missouri River Monument are either out-of-
state financed activists who are new to the area or idealists who live 
in other parts of Montana. I would like to call members of this 
Committee's attention to the fact that the Montana legislature 
overwhelmingly passed a bi-partisan resolution in both 2001 and 2003 
legislative sessions strongly opposing the Monument designation. 
Members of Congress these are the elected representatives who recognize 
how detrimental federal policies are on the people of Montana.
    In addition the 13 BLM hearings regarding the proposed Monument 
restrictions and operating rules in 2006 was unanimously opposed by the 
County Commissioners and overwhelmingly opposed by the residents of the 
six affected Montana counties. In contrast the proponents had full-time 
paid staff trying to orchestrate support, but the majority of the 
testimony (even at the hearings held 200-300 miles from the Monument) 
was in opposition. Strong opposition to the Monument came from a true 
cross-section of sportsmen, boaters, airplane pilots (from across the 
West testifying to retain the ten ``primitive air-strips'' which have 
existed for over 50 years within the proposed Monument boundaries), 
motorists who have enjoyed scenic trips on the dusty dirt roads for 
decades, groups with disabilities, and of course the ranchers and 
businessmen who face economic ruin as the BLM begins implementation of 
draconian regulations which deny the traditional usage and access which 
has been enjoyed and promised by the BLM to thousands of people since 
the turn of the last Century.
    I also want to point out that the Native American tribal leaders of 
the Fort Belknap Reservation which borders the Monument on the 
northeast boundary also testified in strong opposition to the BLM 
proposal repeating the general opposition expressed by other residents 
of the area. They stated in strong terms ``You are taking our access, 
our rights, our land, and our children's future.''
    The people of Montana have been told for decades by the BLM, Forest 
Service and Federal Fish and Wildlife agencies that traditional usage 
at current levels would be respected. However, these Federal agencies 
have continually and systematically restricted access to a navigatable 
river which witnessed millions of tons of freight and thousands of 
passengers transported during the 1860's through the 1890's on this 
strip of River to Fort Benton which had over one mile of docks and 
wharfs to accommodate the economic activity. I must remind the 
congressmen that this is still a legally navigatable river which could 
open up increased litigation if the BLM management rules are 
implemented.
    For the past 100 years the river has seen thousands of recreational 
craft replacing the side-wheelers and other 19th century merchant fleet 
with the continued activity of a thriving usage joining the thousands 
of cows plus maintaining habitat full of elk, deer, antelope and other 
wildlife being watched by the cowboys on their horses drinking out of 
the Missouri--all the while maintaining the areas pristine natural 
beauty. I want to emphasize that the scenic vistas and lush meadows 
that are used for photo backdrops are almost exclusively on private 
land--not Government land.
    Montana boasts that 80% of its citizens are gun owners of which a 
large percentage hunts. The private property contained within the 
Monument is the basis for wild game management which has for five 
generations been Montana's premiere hunting location. The several 
thousand Montana's who opposed the Monument designation recognized that 
during the time federal government became involved in land management 
the number of game animals sharply decreased and restrictions and 
regulations escalated.
    We are frustrated by the continual lies perpetuated through 
brochures, power point presentations, and media clips at taxpayer 
expense. Now the BLM and its expansive bureaucracy wants to ``rescue 
this scenic area'' form the very people who have lovingly maintained it 
for a half dozen generations and sustainably used its resources. For 
years the BLM personnel and decision makers were native Montana raised 
people who understood and appreciated the natural balance of managing 
this region to accommodate multiple usage principles. Now out-of-state 
environmentalists are shaping policies which are threatening the 
property rights of the 120 ranchers representing a half dozen 
generations who have lived and worked in the area declared in 2001 as a 
National Monument.
    How can I convey the scenes of high school gyms and community 
centers with packed bleacher seats and floors packed with folding 
chairs all filled to capacity with young and old--toddlers carrying 
signs ``don't take my daddy's farm'' or teenagers carrying signs ``hug 
a cowboy--not a tree!'' Old and young waiting for hours to voice 
opposition or simply supporting the speakers expressing their upset 
over federal government policies which will end their children and 
grandchildren's hopes to continue their way of life and the investments 
in money and ``sweat'' from their ancestors who have continuously 
ridden their horses over this land.
    We saw the streets of historic Fort Benton (the birthplace of 
Montana) filled with large semi-tractor trucks pulling big cattle 
trailers for as far as you could see protesting the government take-
over with billboards proclaiming ``NO MONUMENT.'' The BL M faced the 
parking lot in the city of Havre (fifty miles from the proposed 
Monument) filled with horses and riders who had traveled up to 100 
miles from throughout the proposed monument area all protesting this 
misguided federal land grab. In Lewistown (the BLM headquarters for the 
Monument management) we saw the county court house surrounded with ATV 
and snowmobile owners protesting federal closure of the recreation 
roads in the Monument designation. We saw sportsmen crowding into every 
hearing throughout Montana and signing petitions opposing this Monument 
as ``bad policy.''
    UNFORTUNATELY, THE REST OF AMERICA DID NOT SEE THE OVERWHELMING 
OPPOSITION WHICH WAS EXHIBITED CONTINUALLY THROUGHOUT THE 13 PUBLIC 
HEARINGS MUCH TO THE DISTRESS OF THE BLM BUREAUCRACY WHO EXPECTED THE 
LOCAL NATIVES TO BOW TO THE AUTHORITY OF WASHINGTON BUREAUCRATS.
    Because of private property rights including the land policy 
setting the scene for forced sales, illegal taking of traditional 
established access--representatives in the State political process are 
discussing the potential needs to increase funding for our attorney 
general's office to prepare for legal challenges to remedy the legal 
issues which agriculture, sportsmen, recreation, and other groups are 
identifying as resulting from the Monument proposal.
    I appreciate the opportunity to bring the concerns of the people of 
Montana to Congress. My only wish is that the members of this body 
could have attended the hearings in Montana and witnessed the passion, 
frustration, and tears of the residents of the proposed Monument area. 
It is difficult to properly convey the feelings of oppression from the 
``heel of the Washington D.C. bureaucracy'' as Montana residents 
witness their property rights, livelihoods, and family dreams crushed 
under policies developed by out-of-state environmental activists. The 
power granted the BLM under this legislation combined with a 
presidential decision based on misguided political philosophy upsets 
the entire economic structure and the lives of hundreds of existing 
residents.
    I want to emphasize that there is no shortage of government owned 
land in Montana with nearly 50% of the State comprised of government 
owned non-taxpaying property all of which is slowly being restricted 
from public use under Forest Service and Federal Fish and Wildlife 
management practices which now appears to be the direction the Bureau 
of Land Management will move under this proposed legislation.
    The BLM has from the beginning said ``...you have nothing to worry 
about; we will make sure your concerns and needs will be protected.'' I 
do not see the hundreds of hours of testimony, the truck loads of 
individual written testimony (in contrast to ``canned'' environmental 
comments sent in by out-of-state activists and city folks who lack 
understanding of the area and impacts from their miss-guided 
proposals.) We are frustrated by the army of BLM staff members who 
promote their agenda at taxpayers' expense while I have had to travel 
thousands of miles to be here today at my personal expense to express 
the concerns of my neighbors, county commissioners, state legislators 
(including my father), and the thousands of ordinary Montana residents 
who spent time attending hearings protesting misguided federal policy. 
We often feel helpless when we are restricted to only two witnesses's 
to express our concerns in contrast the proponents being allowed three 
to four times as many special interest proponents.
    In conclusion this legislation codifies on-going ``one size fits 
all'' radical environmental policy being implemented throughout the 
western United States destroying private property rights which is the 
foundation of our American economic and political system. I only ask 
you to consider the tens of thousands of ordinary tax-paying Americans 
who plead with you as elected representatives not to destroy their 
economic and cultural foundations in this insidious acquisition of 
private property by the government at the behest of the world-wide 
environmental movement.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I have serious 
concerns with H.R. 2016. Coming from a state where much of our 
land is already under Federal lock and key, you should be able 
to understand why I am less than enthusiastic to see another 
layer of bureaucracy placed over us.
    On the surface, proponents of the bill claim this does 
nothing more than codify a program created by the Clinton 
Administration which preserves and protects the lands that have 
a remarkable ability to, as Ms. Daly will put it, define who we 
are as a Nation. Some of the lands are remarkable but some of 
the other lands were created at the whim of special interest 
groups by a sympathetic President.
    We are now told we need to create a system for these lands. 
Believe it or not, we have a system to protect nationally 
significant lands. It is called the National Park Service. This 
appears to be a thinly veiled attempt to insert restrictive 
National Park Service management methods on other lands, which 
indeed should be used in a multi-use way.
    The Chairman's bill uses language to the delight of trial 
attorneys and their responsibility to balance conservation and 
recreation. This bill introduces the concept of values into the 
BLM. My question is what is the value to the BLM. In the 
National Park Service, the value is now interpreted, after 
court cases, that is, to include such subjective things as 
soundscapes, viewscapes and occasionally, smell sheds. Should 
we anticipate further legislation to protect these values in 
the Bureau of Lands?
    Initially, I thought this bill was, at worst, the camel's 
nose under the tent. However, under closer examination, this 
bill not only invites the camel into the tent, he is also in 
the sleeping bag.
    Let's look directly at the legislation--Section 3, 
Establishment. In order to conserve, protect, and restore 
nationally significant landscapes that have outstanding 
cultural, ecological, and scientific values for the benefit of 
current and future generations, there is established in the 
Bureau of Land Management a National Landscape Conversation 
System.
    This may as well be the National Park Service Organic Act. 
It is the same language. It unfortunately goes on. The bill 
further directs the Secretary to manage these lands in a manner 
that protects the values for which the components of the system 
were designated. Again, we are presented with the vague concept 
of values.
    This legislation is the biggest invitation to lawsuits 
since the slip and fall scheme was invented, and I can see the 
day when a judge decides that in light of this language, all 
units of this system will be managed in a uniform and 
consistent way. It is unconscionable to force our multiple 
public lands down the same path that force personal watercraft 
out of the national recreation areas and put snowmobiles on the 
endangered species list.
    This bill also has created another Federal designation. The 
Chairman's bill will include any area designated by Congress to 
be administered for conservation purposes within this new 
system. After this has become law, we should expect an 
onslaught of bills for new national units in the new national 
land conservation system.
    Finally, a witness could have testified to this committee 
had it gone when it was supposed to today about the impacts 
these designations will have on peoples' lives. There are 
witnesses who will give us testimony in written form that have 
been included in these designations against their wishes. 
Making this system permanent will have a direct impact on them. 
This legislation also puts rights of Alaskan Natives, of 
critical importance to me and also the Ranking Member, Mr. 
Young.
    We should deliberate this proposal carefully because the 
special interests have already put multiple use in jeopardy 
with this bill.
    Mr. Grijalva. Thank you, Mr. Bishop. Let me begin with our 
first panel and welcome our colleagues and extend our 
appreciation for taking the time. Let me begin with The 
Honorable Mary Bono, a colleague from California. Very active 
in the Landscape Conservation Caucus and a cosponsor of H.R. 
2016. And let me turn that over to you, Ms. Bono, for any 
comments that you may have.

 STATEMENT OF THE HON. MARY BONO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Bono. I thank the Chair very much. I just want to 
start by assuring Mr. Bishop that I, in my many years of life, 
have done an awful lot of camping in Utah, and never once did I 
ever wake up with a camel in my sleeping bag. But I want to 
thank you both very, very much for allowing me to testify 
today.
    I also think part of my frustration with Congress and the 
way Congress works is that never do we take CODELs around our 
country to visit our own lands ourselves to know our interior 
as much as we ought to, and if we spend as much time touring 
our own lands as we did foreign countries, it would be a very, 
very good thing for the people of the United States.
    I would like to thank you for the opportunity to testify 
today on H.R. 2016, the National Landscape Conservation System 
Act. As you know, Mr. Chairman, we started the work that led to 
this legislation with the NLCS Caucus that was formed to 
examine ways to provide recognition to some of our country's 
most impressive open spaces. I came to this point today after 
recognizing how effectively the model for balancing 
conservation and recreational pursuits has been achieved on 
Federal lands in my congressional district.
    In October of 2000, the Santa Rose-San Jacinto Mountains 
National Monument Act became law, providing an example of one 
of the first national monuments to be designated legislatively. 
The issues surrounding the culminating legislation were many, 
with varying concerns over access, recreation and preserving 
unique plant and wildlife species that live in the area.
    In the end, we were able to effectively engage our local 
stakeholders to gain the support of private landowners, Native 
American tribes and the conservation community. The success of 
the monument and its value to the Coachella Valley in 
California is significant. This is the reason why I am 
supporting H.R. 2016, as the ability for the BLM to oversee 
these lands for conversation while also working to achieve the 
continued need for access and recreation is commendable.
    At this time, within the monument in my district, work is 
being done to protect the peninsular desert bighorn sheep and a 
total of 73 percent of the existing critical habitats of 
endangered species is within the NLCS. It is my hope visitors 
to this monument will continue to experience this unique area 
for years to come.
    Further, I do think it is important that we move forward 
with this legislation while knowing that different areas 
throughout the country have enacted various management plans 
for the lands within the system components. Protecting the 
original intent of these underlying prescriptions that may have 
been established in legislation or through an administrative 
act is both sensible and important.
    The NLCS needs the proper oversight of Congress, which is 
why I think today's hearing is very valuable. The system ranges 
from monuments, to trails across the country, including areas 
that I visited throughout my entire life. It is clear that the 
BLM faces challenges. With this legislation, we can now 
potentially better quantify what value these lands bring to so 
many parts of our lives.
    In moving forward with this legislation, I have heard input 
from other members, and it is my hope that proper consideration 
can be given to ensuring we can protect these unique areas 
while maintaining the intent of existing law, and I think we 
should underscore that point.
    Today's hearing will hopefully display the varied ways in 
which these lands can be utilized for enriching the lives of 
tourists from other countries, domestic visitors or the 
residents who are fortunate enough to have these lands in their 
backyard.
    With that, Chairman Grijalva and Ranking Member Bishop, I 
am hopeful of the bipartisan support of this committee on this 
effort, and I appreciate the support of the administration. I 
thank you again for the opportunity to testify, given the time 
changes that we have all had to endure today. Thank you very 
much, Mr. Chairman.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Ms. Bono follows:]

        Statement of The Honorable Mary Bono, a Representative 
                in Congress from the State of California

    Chairman Grijalva, Members of the Subcommittee and Full Committee, 
I would like to thank you for the opportunity to testify today on H.R. 
2016, the National Landscape Conservation System (NLCS) Act. As you 
know, Mr. Chairman, we started the work that led to this legislation 
with the National Landscape Conservation System Caucus that was formed 
to examine ways to provide recognition some of our country's most 
impressive open spaces.
    I came to this point today after recognizing how effectively the 
model for balancing conservation and recreational pursuits has been 
achieved on federal lands in my Congressional district. In October of 
2000, the Santa Rosa and San Jacinto Mountains National Monument Act 
became law, providing an example of one of the first national monuments 
to be designated legislatively.
    The issues surrounding the culminating legislation were many, with 
varying concerns over access, recreation, and preserving the unique 
plant and wildlife species that live in the area. In the end, we were 
able to effectively engage our local stakeholders to gain the support 
of private landowners, Native American tribes, and the conservation 
community.
    The success of the Monument and its value to the Coachella Valley 
in California is significant. This is the reason why I am supporting 
H.R. 2016, as the ability for the Bureau of Land Management to oversee 
these lands for conservation while also working to achieve the 
continued need for access and recreation is commendable.
    At this time, within the Monument in my district, work is being 
done to protect the Peninsular Desert Bighorn Sheep and a total of 73% 
of the existing critical habitat for this endangered species is within 
the NLCS.
    It is my hope that visitors to the Monument will continue to 
experience this unique area for years to come. Further, I do think it 
is important that we move forward with this legislation while knowing 
that different areas throughout the country have enacted various 
management plans for the lands within the System components. Protecting 
the original intent of these underlying prescriptions that may have 
been established in legislation or through an Administrative act is 
both sensible and important.
    The NLCS needs the proper oversight of Congress, which is why I 
think that today's hearing is so valuable. The System ranges from 
monuments to trails, including areas that I've visited throughout my 
life across the country. It is clear that the BLM faces challenges that 
we can now potentially better quantify what value these lands bring to 
so many parts of our lives.
    In moving forward with this legislation, I have heard input from 
other Members, and it is my hope that proper consideration can be given 
to ensuring we can protect these unique areas while maintaining the 
intent of existing law.
    Today's hearing will hopefully display the varied ways in which 
these lands can be utilized for enriching the lives of tourists from 
other countries or the casual weekend for outdoor enthusiast who is 
fortunate enough to have these lands in their backyard.
    With that, Chairman Grijalva and Ranking Member Bishop, I am 
hopeful of the bipartisan support of the Committee on this effort as 
well as the support of the Administration. I thank you again for the 
opportunity to testify given the time changes that have taken place 
with the other priorities of this Committee.
                                 ______
                                 
    Mr. Grijalva. Let me now turn to our colleague Congressman 
Moran, also a cosponsor of H.R. 2016 and a member of the 
caucus, one of the co-chairs, for your comments and your 
testimony, Congressman.

STATEMENT OF THE HON. JAMES MORAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Moran. Thank you, Mr. Chairman and members of the 
committee, particularly my fellow co-chairs, Congresswoman Bono 
and you, Chairman Grijalva. Today's hearing in support of H.R. 
2016, the National Landscape Conversation System Act, this is a 
simple piece of legislation that will codify the Bureau of Land 
Management's conservation system so that it will be recognized 
and managed as a national system.
    These lands were rightly given special status as national 
monuments, national conservation areas, wilderness, wild and 
scenic rivers and national scenic and historic trails by 
Congress and by Presidential proclamation. While the majority 
of these lands are in the western United States, we need look 
no further than just across the Potomac River in northern 
Virginia where a segment of the Potomac Heritage Trail crosses 
my congressional district. Like the widely popular Potomac 
Heritage Trail, the preservation of all of these lands is 
undeniably important for recreation and open space. Of equal or 
perhaps even greater importance, however, is their role in 
conserving landmark natural, cultural and scientific resources.
    Today, however, Congress has not recognized their 
management in a unified system. These places are unique and 
diverse and continue to provide our Nation with new 
appreciation of their historic, cultural and scientific 
importance. In Utah, although they haven't found any camels, 
they did find a very rare dinosaur skin that was discovered 
with bone fossils.
    We can explore our own history and the settlement of this 
continent through the Lewis and Clark Trail, the California, 
Pony Express, the Oregon Trail, and the Mormon Pioneer and Old 
Spanish National Historic Trails. New insect discoveries are 
emerging from Grand Canyon, including a new genus and four new 
species of crickets and two new species of millipedes.
    Those are important because of the ecology that they are 
part of. The Headwaters Forest Reserve is home to threatened 
murrelets and the endangered northern spotted owls. The 
Vermillion Cliffs National Monument in Arizona is the release 
site and habitat for the endangered California condor, which 
was brought back from the brink of extinction.
    Seven years ago this month, these lands were 
administratively organized as a system by the U.S. Department 
of the Interior. The Bureau of Land Management has proven that 
they can manage these lands for conversation and it is time for 
Congress to give this conversation system their stamp of 
approval. There is demonstrated bipartisan support for the 
conservation system and this legislation through the National 
Landscape Conversation System Congressional Caucus. This 
measure also enjoys the support of the Bush administration.
    So I thank you for the opportunity to submit this 
statement. I appreciate your leadership on this issue and I 
encourage the committee to move swiftly to consider this 
legislation. Thanks very much, Mr. Chairman. I very much thank 
my colleague Ms. Bono for testifying as well, and for your 
leadership. Mr. Bishop doesn't seem quite as enthusiastic, so I 
will thank him for this particular piece of legislation.
    Mr. Bishop. It has been a long day.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Mr. Moran follows:]

      Statement of The Honorable James P. Moran, a Representative 
                 in Congress from the State of Virginia

    Chairman Grijalva, Members of the Committee and honored guests, I 
am pleased to join you and one of my fellow Co-Chairs of the National 
Landscape Conservation System Congressional Caucus, Mary Bono, at 
today's hearing in support of H.R. 2016, the National Landscape 
Conservation System Act. This simple piece of legislation will codify 
the Bureau of Land Management's conservation system, so that it will be 
recognized and managed as a national system.
    These lands were rightly given special status as National 
Monuments, National Conservation Areas, Wilderness, Wild and Scenic 
Rivers and National Scenic and Historic Trails by Congress and by 
Presidential Proclamation. While the majority of these lands are in the 
Western United States, we need look no further than just across the 
Potomac River in Northern Virginia where a segment of the Potomac 
Heritage Trail crosses my congressional district.
    Like the widely popular Potomac Heritage Trail, the preservation of 
these lands is undeniably important for recreation and open space. Of 
equal or perhaps even greater importance, however, is their role in 
conserving landmark natural, cultural and scientific resources. To 
date, however, Congress has not recognized their management as a whole 
in a unified system.
    These places are unique and diverse and continue to provide our 
nation with new discoveries of historic, cultural and scientific 
importance. In Utah, a very rare dinosaur skin was discovered with 
hadrosaur bone fossils. We can explore our own history and settlement 
of this continent through the Lewis and Clark Trail, the California, 
Pony Express, the Oregon Trail, and the Mormon Pioneer and Old Spanish 
National Historic Trails. New insect discoveries are emerging from 
Grand Canyon Parashant National Monument in Arizona, including a new 
genus and four new species of crickets and two new species of 
millipedes. The Headwaters Forest Reserve is home to threatened Marbled 
Murrelets and the endangered Northern Spotted Owls. The Vermillion 
Cliffs National Monument in Arizona is the release site and habitat for 
the endangered California Condor, which was brought back from the brink 
of extinction.
    Seven years ago this month, these lands were administratively 
organized as a system by the U.S. Department of the Interior. The 
Bureau of Land Management has proven they can manage these lands for 
conservation, and it is time for Congress to give this conservation 
system their stamp of approval. There is demonstrated bipartisan 
support for the conservation system and this legislation through the 
National Landscape Conservation System Congressional Caucus. This 
measure also enjoys the support of the Bush Administration. I thank you 
the opportunity to submit this statement and I urge your swift 
consideration of this legislation.
                                 ______
                                 
    Mr. Grijalva. I have no questions for our colleagues. Mr. 
Bishop.
    Mr. Bishop. No questions.
    Mr. Grijalva. Let me thank you. I extend the invitation 
that you are free to join us at the dais, but as you rush out 
the door, I can appreciate that as well. Thank you very much. 
Thank you for your testimony.
    Let me call the next panelist up. Ms. Elena Daly, Director 
of National Landscape Conservation System, Bureau of Land 
Management. Thank you very much, Director. I am particularly 
grateful given the circumstances that occurred to you. I would 
venture to say that this hearing, although it might be some 
tough questions, cannot compare to being hit by a car. And so I 
would like to extend to you our appreciation for you taking the 
time and being here and look forward to your testimony. You may 
begin.

  STATEMENT OF ELENA DALY, DIRECTOR OF THE NATIONAL LANDSCAPE 
         CONSERVATION SYSTEM, BUREAU OF LAND MANAGEMENT

    Ms. Daly. Thank you very much, Mr. Chairman. Mr. Chairman 
and members of the committee, I am Elena Daly, Director of the 
National Landscape Conservation System. Thank you for inviting 
me to testify on H.R. 2016, the National Landscape Conservation 
System Act.
    The NLCS is a significant part of BLM's conservation 
efforts and is integral to BLM's overall multiple use mission. 
The BLM is proud to oversee the system which includes areas 
nationally recognized for their outstanding values. These lands 
are not simply places to visit, they help us define who we are 
as a Nation, and they tell our national story as it unfolded in 
the unforgettable landscapes of the West.
    The Department supports H.R. 2016, a bill that would 
legislatively establish the NLCS to protect, conserve and 
restore nationally significant landscapes. The bill would 
provide for the inclusion in the NLCS of congressional and 
Presidentially designated special places administered by BLM. 
H.R. 2016 would provide legislative support for the NLCS and 
its conservation mission within BLM.
    In June of 2000, the Department of the Interior 
administratively established the NLCS to bring into a single 
organized system many of BLM's outstanding ecological, cultural 
and scientific landscapes. The BLM is charged with managing the 
public lands for a wide variety of uses. This multiple use 
mission directs the balanced management of public land for uses 
that may include, but certainly are not limited to recreation, 
livestock, grazing, energy development and timber harvest.
    The NLCS is a integral part of that mission and includes 
national monuments, national conservation areas, national 
scenic and historic trails, wild and scenic rivers, wilderness 
and wilderness study areas. Over the last 6 years since its 
inception, the NLCS has established successful collaborative 
relationships with local communities, States, tribes, and 
private citizens. These partnerships are also critical as we 
pursue our mission.
    In an increasingly crowded and fast-changing West, NLCS 
units provide some of the best examples of open space. For the 
most part, NLCS units are not highly developed. Rather, they 
provide visitors a different sort of outdoor experience, an 
opportunity to explore, discover and relax.
    H.R. 2016 proposes to establish in statute the current 
administrative structure of the BLM National Landscape 
Conservation System. We understand that the bill is intended to 
maintain the current management of the NLCS individual units, 
and as each unit is unique, we strongly support this.
    By formalizing the NLCS, H.R. 2016 would give congressional 
support and direction, strengthening the special system of 
lands within the context of BLM's multiple use mission. This 
will assure that these landscapes of the American spirit would 
be conserved, protected and restored for the benefit of current 
and future generations.
    Thank you for the opportunity to testify in support of H.R. 
2016. I will be happy to answer any questions.
    [The prepared statement of Ms. Daly follows:]

  Statement of Elena Daly, Director, National Landscape Conservation 
   System, Bureau of Land Management, U.S. Department of the Interior

    Thank you for inviting me to testify on H.R. 2016, the National 
Landscape Conservation System Act. The National Landscape Conservation 
System (NLCS) is a significant part of the Bureau of Land Management's 
(BLM) conservation efforts and is integral to the BLM's overall 
multiple-use mission. The BLM is proud to oversee this system which 
includes areas nationally recognized for their outstanding values. 
These lands are not simply places to visit; they help define who we are 
as a Nation and tell the story of our nation as it unfolded in the 
unforgettable natural landscapes of the West.
    The Department supports H.R. 2016, a bill that would legislatively 
establish the NLCS in order to conserve, protect, and restore 
nationally significant landscapes. The bill would provide for the 
inclusion in the NLCS of Congressionally and Presidentially designated 
special places administered by the BLM. H.R. 2016 would provide 
legislative support to the NLCS and its conservation mission within the 
BLM.
Background
    In June 2000, the Department of the Interior administratively 
established the NLCS within the BLM bringing into a single organized 
system many of the BLM's outstanding ecological, cultural and 
scientific landscapes. The BLM is charged with managing the public 
lands for a wide range of uses. This multiple-use mission directs the 
balanced management of public lands for many uses, including 
conservation, recreation, livestock grazing, energy development, and 
timber production. The NLCS is an integral part of that mission and 
includes National Monuments, National Conservation Areas (NCAs), 
National Scenic and Historic Trails, Wild and Scenic Rivers, 
Wilderness, and Wilderness Study Areas (WSAs). The BLM, under the 
authority of section 603 of FLPMA, manages WSAs so as not to impair 
their wilderness character. The establishment of the NLCS would not 
change the status of the WSAs or the authority of Congress, at some 
future time, to designate them as units of the National Wilderness 
Preservation System or to release them for non-wilderness multiple use.
    The NLCS currently includes 27 million acres of archaeological and 
historic treasures such as Canyons of the Ancients National Monument in 
Colorado and the Oregon National Historic Trail, wildlife havens such 
as Snake River Birds of Prey NCA in Idaho and Aravaipa Canyon 
Wilderness in Arizona, and hiking challenges such as King Range 
National Conservation Area along the lost coast of northern California 
and significant sections of the Continental Divide National Scenic 
Trail as it winds its way through New Mexico, Colorado, Wyoming and 
Montana.
    Over the last six years, since its inception, the NLCS has 
established successful, collaborative relationships with local 
communities, States, tribes, friends groups, and private citizens. 
These partnerships are critical to the on-the-ground success of NLCS 
units.
    In an increasingly crowded and fast-changing West, NLCS units 
provide some of the best examples of open space. For the most part, 
NLCS units are not highly developed. Rather, they provide visitors a 
different kind of outdoor experience--an opportunity to explore, 
discover and relax. These are places to get lost and find oneself.
    Many NLCS units were designated specifically for their scientific 
values. Recent discoveries at some NLCS units include cave-dwelling 
millipedes previously unknown to science and numerous new species of 
dinosaurs. In 2006, at Grand Staircase-Escalante National Monument, the 
discovery of one of the largest known oviraptor in the world (a giant 
7-foot tall, 14-foot long flesh-eating, feathered dinosaur) was 
revealed. The diverse opportunities for scientific inquiry allow NLCS 
units to be used as outdoor laboratories by a wide range of 
universities, colleges, and high schools including Brigham Young 
University, Montana State University, Colorado State University, 
Northern Arizona University, Universidad de Sonora (Mexico), Stanford 
University, Boise State University, University of New South Wales 
(Australia), Oregon State University, University of Utah, and the 
University of Witwatersrand (South Africa). Their efforts also directly 
benefit local communities. For example, studies of lava flows at 
Craters of the Moon National Monument in collaboration with Idaho State 
University contribute to hands-on science curriculum for local 
elementary students.
    Much of the support for NLCS units comes from local communities 
that work with the BLM to engage in cooperative conservation that 
enhance local economies, cultures, and resources. At New Mexico's 
Kasha-Katuwe Tent Rocks National Monument, an inter-governmental 
cooperative agreement between the BLM and the Pueblo de Cochiti has 
successfully provided for enhanced visitor services while improving the 
health of the land at this spectacular geologic wonder. In southern 
Arizona, Las Cienegas NCA is collaborating with local ranchers, water 
districts, the State and county to develop innovative solutions to 
managing this precious watershed in a desert environment--all in the 
context of a historic ranching community.
    Many NLCS units are adjacent to growing urban centers and provide 
respite from the city as well as recreational opportunities. Santa Rosa 
and San Jacinto Mountains National Monument adjoins the burgeoning Palm 
Springs area of California; McGinnis Canyons NCA lies near Grand 
Junction, Colorado; and Red Rock Canyon NCA is located just outside of 
Las Vegas, Nevada. Red Rock Canyon NCA has some of the highest 
visitation of any BLM-administered site and serves as an adventurous 
alternative for locals and visitors from Las Vegas' other attractions. 
The many communities in California's Coachella Valley welcome the 
undeveloped open spaces of the Congressionally designated Santa Rosa 
and San Jacinto Mountains National Monument. Partnerships with the Agua 
Caliente Band of Cahuilla Indians, the Friends of the Desert Mountains, 
and the cities of Palm Desert, Palm Springs, La Quinta, Cathedral City, 
Indian Wells, Rancho Mirage and Indio have enhanced BLM's ability to 
improve recreational opportunities while also providing for improved 
habitat for the endangered Peninsular bighorn sheep. Colorado's growing 
recreation industry promotes McInnis Canyon as a place for outdoor 
activity including wilderness hiking, rafting and mountain biking.
    From the remote, wild Steens Mountain Cooperative Management and 
Protection Area in the eastern part of the State, to coastal Yaquina 
Head Outstanding Natural Area's lighthouse and tidal pools, the 
diversity of NLCS units can be viewed across the breadth of Oregon. The 
Oregon National Historic Trail and the interpretive center in Baker 
City provide a window into our pioneer past and the 300,000 emigrants 
who used this pathway to the Pacific. Three ecosystems collide in 
Cascade-Siskiyou National Monument in southwestern Oregon forming a 
unique assemblage of rare plants and animals. Oregon's 802 miles of 
wild and scenic rivers provide unparalleled opportunities for fishing, 
hunting and boating which contribute to economic diversity in local 
communities.
H.R. 2016
    H.R. 2016 proposes to establish in statute the current 
administrative structure of the BLM's National Landscape Conservation 
System. We understand that the bill is intended to maintain the current 
management of the NLCS' individual units. However, since we testified 
before the Senate Energy and Natural Resources Committee's Subcommittee 
on Public Lands and Forests, it has come to our attention that the 
language in section 3(c)(2) could inadvertently create ambiguity or 
confusion. As each unit is unique, we strongly support the recognition 
of their individual management frameworks and we would like the 
opportunity to work with the Chairman to clarify the legislation in 
regards to section 3(c)(2).
    By formalizing the NLCS, H.R. 2016 would give Congressional support 
and direction, strengthening this special system of lands within the 
context of the BLM's multiple-use mission. This will assure that these 
landscapes of the American spirit would be conserved, protected, and 
restored for the benefit of current and future generations.
    Thank you for the opportunity to testify in support of H.R. 2016. I 
will be happy to answer any questions.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Director. Let me ask you 
some clarifying questions because the legislation provokes a 
lot of other questions, and maybe through your answers, you can 
begin to clarify some of those.
    Beginning with what you said, the mission of multiple use 
as a core of BLM's mission, how does the NLCS fit into the 
definition of multiple use on BLM land? Is there a 
contradiction there?
    Ms. Daly. Most not a contradiction, Mr. Chair. Ninety-nine 
percent of our units are available for grazing, for instance. 
The valid existing rights, whether private property, or, for 
instance, in Canyon of the Ancients National Monument, oil and 
gas leases are honored. We continue to provide recreational 
opportunities of a wide variety for people, everything from 
motorized recreation on designated roads, to primitive camping, 
for instance.
    We do, through our science program wildlife projects, we 
look forward to working with cultural resource management. We 
have at least--Canyon of the Ancients, one of the most 
intensely dense sites for cultural resources in the Nation. And 
so you see a variety of BLM programs that figure into the 
management of NLCS as well.
    Mr. Grijalva. Let me follow up on the point that you just 
made about--that the NLCS was established pursuant to valid 
existing rights. You mentioned grazing, energy development 
permitted on Federal land. Is there anything in H.R. 2016 that 
alters that valid existent rights provision?
    Ms. Daly. There is nothing in the bill that would do that, 
sir.
    Mr. Grijalva. Thank you. You mentioned the cultural 
resources and how important it is. I do want to acknowledge 
that point. I think repeatedly it has been made a core part of 
the system, and I think that is very important. Can you maybe 
explain to the committee the issue of the significance to 
Native Americans of the NLCS and why there is so much support 
for the system and for formalizing the system as you said among 
Native American tribes.
    Ms. Daly. Yes. First of all, a lot of our units contain the 
sites that are culturally or religiously significant to many 
tribes. We have ongoing working relationships, as Congressman 
Bono mentioned, with Agua Caliente. The Pueblo De Cochiti 
actually manages Kasha-Katuwe Tent Rocks in New Mexico. It is a 
site that is significant to the Pueblo and they manage it to 
honor those places.
    We work very closely with a number of tribes on our trails. 
So many of the historic trails if not all originated as Indian 
footpaths across the Nation. And so it is important to involve 
tribes such as the Shoshone, the Nez Perce, the northern plains 
tribes in how we tell that story and how we manage those areas.
    The Yurok tribe of Northern California has an agreement 
with us to come to manage the northern part of the California 
Coastal Monument because those areas are also significant to 
them. Those are just a few of the tribal relationships that we 
have established.
    Mr. Grijalva. And repeatedly I have heard from native 
nations the issue of access and how that has been a very 
important part. Whether it is a sacred site, tradition, that 
access has been not just granted but facilitated.
    Ms. Daly. Absolutely. We work very closely with any of the 
interests but we also guard that information very closely 
because it is so important to the tribes.
    Mr. Grijalva. Clarify, one last point; clarify the status 
of private lands within the boundary or unit of NLCS. Are those 
private lands actually part of the unit or do they remain 
private?
    Ms. Daly. They remain private.
    Mr. Grijalva. At this point I don't have any more 
questions. Mr. Bishop.
    Mr. Bishop. Yes, I apologize you actually had to come here 
when you already suffered. I apologize for that. So let me give 
you just a softball question at first before the grilling 
begins.
    What is the one advantage, since supposedly nothing changes 
in the management scheme, you will continue to be Director of 
this program, whether it is done by administrative rule or 
whether it is done by congressional codification, what then is 
the one advantage for congressional codification?
    Ms. Daly. One advantage, sir, is it gives a sense of 
permanence and security to the system that we don't currently 
have.
    Mr. Bishop. Is the system in danger now from administrative 
reasons?
    Ms. Daly. Not at the moment, no, sir.
    Mr. Bishop. Could you just briefly tell me like the history 
of the BLM, why it was established in the first place?
    Ms. Daly. The BLM or NLCS, sir?
    Mr. Bishop. The BLM.
    Ms. Daly. It was established as a combination of the 
Grazing Service and the General Land Office in 1946. It was 
originally established to provide for multiple use management 
of and disposal of public lands primarily in the West.
    Mr. Bishop. What was the last part?
    Ms. Daly. Managed for multiple use and disposal of public 
lands in the West. Do you want the rest of the history or is 
that enough?
    Mr. Bishop. You got the basic part there; in fact, all the 
phrases are essential. I wouldn't expect you to have actually 
done this, but I doubt that you have actually read the enabling 
acts of most western states when they came in the union as to 
what historic purpose of their lands was to be.
    Ms. Daly. No, sir.
    Mr. Bishop. I wouldn't have imagined that to be the case. 
In fact, I would be highly surprised if it were the case. You 
have more important things to do than that. When you say then 
that the lands are not simply places to visit but they help 
define where we are as a Nation, does that fit in with the 
historic role of the BLM?
    Ms. Daly. It does. The point I gave you in the history was 
1946. In 1976 with the passage of FLPMA, the BLM's mission was 
broadened.
    Mr. Bishop. Certainly was, wasn't it. Too bad you didn't 
ask the western States about that when it happened. The concept 
of conservation, recreation, livestock grazing, energy 
development and timber production as you said in your testimony 
are the important elements of BLM.
    Ms. Daly. They are some of those elements, yes, sir.
    Mr. Bishop. Can I ask, and you may not know this because it 
a drafting issue, in the bill before when it says the purpose 
of the establishment of this office, none of those elements, 
livestock grazing, energy development, timber, those were left 
out of the verbiage that is used when we try to codify this. Do 
you have any idea why that was the case?
    Ms. Daly. I did not participate in the drafting.
    Mr. Bishop. Would you be opposed to adding that language in 
there to specify the broad view of multiple purpose the BLM is 
supposed to have?
    Ms. Daly. I would prefer to defer to the committee on that, 
sir.
    Mr. Bishop. If we gave you the magic ability of being one 
of us.
    Ms. Daly. I would still defer to the committee.
    Mr. Bishop. Let me try another one, which means with the 
national wilderness areas, which of course--national wilderness 
study areas, which are obviously not national wilderness but 
simply areas to be studied until such time as Congress makes a 
designation.
    If this Act were to be passed, do you think it would be 
either harder or easier to make an adjudication as to the 
status of wilderness study areas?
    Ms. Daly. I don't believe that the Act would affect that 
adjudication one way or the other.
    Mr. Bishop. Do you think it would make a difference to your 
ability to administer those as presently your responsibility if 
wilderness study areas were left off of the list of those 
things encompassed within this new conservation system, since 
that is supposedly a temporary status until Congress makes an 
adjudication.
    Ms. Daly. Again, sir, I would have to defer to the 
committee. As far as the management, the bill does not change 
the management of the system at all.
    Mr. Bishop. Mr. Chairman, I have a lot more and I will 
defer--let me do one that can be very quick. You state in here 
that the NLCS has established a successful collaborative 
relationship with local communities. Do you expect that to 
disappear without this bill?
    Ms. Daly. No, sir. I fully expect it to continue to 
increase.
    Mr. Bishop. Whether this bill is here or not?
    Ms. Daly. Yes.
    Mr. Bishop. I only have 20 seconds here. I defer to other 
members, but I do have questions.
    Mr. Grijalva. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. First, I have a 
background question. At least two of these areas that you 
administer now are the McInnis Canyon area in Colorado and the 
Canyons of the Ancients National Monument in Colorado. Now I 
was formally under the impression that a national monument was 
part of the national park system, was one of the 390 some units 
of the national park system, but this national monument is not. 
What is the difference?
    Ms. Daly. We have 15 national monuments, sir, and they were 
established and given to the Bureau of Land Management in their 
authorizing documents. As Mrs. Bono stated, Santa Rosa, San-San 
Jacinto is the only congressionally established one of the 
national monuments, all the rest were accomplished through 
Presidential proclamation and----
    Mr. Lamborn. So if it is a BLM managed area, then it is not 
NPS, is what you are saying?
    Ms. Daly. Correct.
    Mr. Lamborn. So Congress could take a wilderness area and 
elevate it to national monument status and put it in either 
category or under either management, BLM or NPS.
    Ms. Daly. That would certainly be a congressional decision.
    Mr. Lamborn. That is my background question. Now, as to 
this particular proposed legislation, in your testimony, you 
stated that passage of the bill ``will assure that these 
landscapes of the American spirit would be conserved, protected 
and restored for the benefit of current and future 
generations.'' my question is isn't this being done right now 
under your mandate?
    Ms. Daly. What happens under the NLCS that differentiates 
it from general BLM management is that certainly the Bureau has 
a conservation mission, but because of the unique aspects of 
each of these places such as McGinnis Canyon or Canyons of the 
Ancients we can move more toward the conservation side and make 
some decisions that we might not otherwise be as free to make 
on general BLM lands.
    Mr. Lamborn. Could you be more specific about that? Give me 
some examples where you have gone more in the conservation 
direction as opposed to what you would have otherwise done.
    Ms. Daly. Well, for instance, I would use Canyon of the 
Ancients as an example with the intense density of cultural 
resources. While we honor the valid existing rights on existing 
oil and gas leases, there will be no new leases for oil and gas 
in Canyons of the Ancients. If that were on general BLM land, 
we couldn't necessarily make that statement. It might be open 
to oil and gas development, thereby jeopardizing some of those 
cultural resources.
    Mr. Lamborn. So oil and gas leases is one possible thing 
that would be lost under this legislation--well, under NLCS 
designation as opposed to regular BLM designation.
    Ms. Daly. If the proclamation says that, yes. If it is 
withdrawn from mineral entry.
    Mr. Lamborn. OK. You also said in your testimony that 
passage of this bill would give congressional direction 
regarding management of these lands. And my question overlaps 
with what I just asked a minute ago. Don't you already have 
special designations that give you direction on how to manage 
BLM land, or are you seeking more or different kind of 
direction?
    Ms. Daly. Actually, what we are seeking, sir, is closer to 
a permanent system. The bill does not ask for any further 
direction, does not ask for any increase in the system, it 
simply says that the system will exist, and since it is 
administratively determined right now, while there may be no 
immediate threat, I cannot tell you that in 20 or 30 years 
there may not be.
    Mr. Lamborn. Apart from freezing any oil and not allowing 
any further oil and gas leases, what other practical 
differences would this make if you take a parcel under NLCS 
authority?
    Ms. Daly. It doesn't necessarily stop oil and gas, that was 
just the Canyon of the Ancients example. It would depend on 
what the proclamation or legislation said that created the 
unit. But essentially that is what the bill does, it just moves 
us from administratively designated to congressionally 
sanctioned. It is a formalization.
    Mr. Lamborn. Would there be other possible restrictions on 
use other than not allowing oil and gas leases that you can 
think of?
    Ms. Daly. That would have to be determined by whomever 
created the unit to be put in. For instance, if Congress 
determined there should be a unit added to the system, Congress 
would tell us what the restrictions would be. If it was done by 
the President under the authority of the Antiquities Act, the 
Presidential proclamation would limit it. We do not determine 
those restrictions.
    Mr. Lamborn. Thank you for your answers.
    Mr. Grijalva. Thank you. Thank you very much. We have some 
additional questions, Director, but we are going to recess this 
meeting. It has been that kind of day, we have three votes, and 
should be back within half an hour to 35 minutes. Thank you for 
your indulgence and we will continue with the questions when we 
get back. Hearing is recessed.
    [recess.]
    Mr. Grijalva. Let me reconvene the hearing and turn to Mr. 
Bishop for any additional questions he might have.
    Mr. Bishop. Ms. Daly, I had the chance of talking to 
Congressman Walden this morning about the Steens Act provision 
that is in this particular bill. Of course, it is a difficult 
situation. I understand that both the Senate and the House 
version of this particular bill cause some potential concerns 
for them for the Steens Act because primarily the 
implementation of the Steens Act was caused by the National 
Landscape Conversation System and the management handbook and 
the policies which accompanied it, so that all on-ground 
collaborative work among the landowners and conservation groups 
and local government working with BLM to implement the Steens 
Act, and as Congressman Walden and members of the Oregon 
delegation intended, was initially thwarted by NLCS handbook.
    The question I have, though, is I understand this morning 
the Department of the Interior noted its strong support to 
modify the language of this particular bill to ensure that that 
historic bipartisan consensus-based Steens Act would clearly be 
the overall guiding statute in the current and future 
management plans of this area that is known as the Steens 
Mountain Cooperative Management Protection Area. Am I correct 
in that assumption?
    Ms. Daly. You are correct, sir.
    Mr. Bishop. I assume that the Department would have no 
problems if there were to be clarifying language.
    Ms. Daly. Absolutely none.
    Mr. Bishop. Ms. Daly, I do have some compassion for the 
situation you were in. I don't want to hold you here longer. I 
have a whole lot of questions and the questions are very 
pointed. I am more than happy to put them in written form and 
send them to you and you can at your leisure respond to them in 
that way.
    Ms. Daly. Thank you, sir. We would be glad to respond to 
those questions.
    Mr. Bishop. I will yield back.
    Mr. Grijalva. Thank you, Mr. Bishop. I would note that H.R. 
2016 does not authorize the BLM as a whole, it is just NLCS 
that we are talking about in this discussion.
    Director, thank you so much. Appreciate it very much. Thank 
you for adjusting your whole day. Appreciate it very much.
    To the rest of the panelists that are coming up, the same 
thanks for adjusting your whole day. If we could call the next 
panel up, please.
    Mr. Bishop. Mr. Chairman, may I ask unanimous consent for 
the record to include a letter that is to Senator Wyden and 
Senator Smith and Congressman Walden.
    Mr. Grijalva. Without objection. Also at the same time let 
me enter in the record for one of our colleagues, Ms. Lois 
Capps, a communication to the committee. Without objection.
    [The letter from Mr. Otley submitted for the record 
follows:]

Date:  June 6, 2007

To:  Senator, Wyden, Senator Smith and Congressman Walden

From:  Fred Otley 40926 S Diamond Ln Diamond, OR 97722 (541) 493-2702

Subject:  S. 1139/H.R. 2016, National Landscape Conservation System Act

    You provided the leadership for the writing and enactment of the 
Steens Mountain Cooperative Management and Protection Act of 2000. The 
Steens Act is very unique from all other public land, resource 
management and environmental legislation in providing language that 
balances and promotes protection, multiple-use, private land, grazing, 
recreation and cooperative management. S. 1139/H.R. 2016 will 
substantially destroy the fundamentals of the Steens Act due to the 
following reasons:
    1.  First, the primary problems we have had with the implementation 
of the Steens Act was caused by the National Landscape Conservation 
System and the Management Handbooks and Policies that go with it. All 
of your work to get the BLM to implement the Steens Act as you wrote it 
and as you intended the Act to be implemented was initially thwarted by 
the NLCS Handbook, management directives and philosophy. We did not 
know this until last year.
    2.  Our position with BLM was to ``use all sections and language of 
the Steens Act as the fundamental directives, purposes, objectives and 
management framework for interim and operating plans, environmental 
assessments, the Resource Management Plan, EISs, etc.'' and the Steens 
Act will be a model the all other special designation should emulate. 
The BLM began using the Steens Act as the primary directive instead of 
NLCS guidance and all of the past implementation problems rapidly have 
disappeared. The Steens Act is now working well and as you intended.
    3.  If The Steens CMPA becomes a part of the NLCS I believe the 
progress you, BLM and all of us has made will began to unravel. I 
believe the only measurement we have to validate this is how the NLCS 
system and planning and philosophy has negatively impacted early 
implementation of the Steens Act and the early workings of the Steens 
Mountain Advisory Council.
    4.  The Steens Act could continue to evolve a new and innovative 
way to manage, protect and cooperate on a landscape scale if it is kept 
out of the NLCS system. I would suggest that amending fundamental 
purpose of 1139/2016 to require all special designations ``to maintain 
and enhance the cultural, economic, ecological, and social health''; 
and ``to provide for and expand the cooperative management activities 
etc.''; and ``to promote viable and sustainable grazing, and recreation 
operations on private and public lands''; and ``to conserve, protect 
and manage for healthy watersheds and the long-term ecological 
integrity''; along with mandating ``The Plan shall provide 
coordinationwith State,, county, and private local landowners and the 
Burns Paiute Tribe''; and the emphasis of ``Cooperative Management 
throughout the Steens Act.
    5.  The Congressional intent and existing management guidance and 
policy will shift on WSAs under the NLCS. Right now grazing levels, 
management systems and historical access is protected and provided in 
WSAs but ongoing lawsuits and agency policy interpretations will most 
likely alter the emphasis of historical use and management to 
preservation and elevated emphasis of impacts to wilderness values 
which are extremely subjective.
    6.  Many BLM personnel at the field level believe the mission and 
management directive of special designations will shift away from 
multiple use and private commercial uses of public lands but few will 
step forward because the tenure of NLCS is not adequate to objectively 
measure management and public use impacts. The majority of historical 
public uses will continually be regulated and restricted and confined 
to smaller areas along primary roads causing congestion and an impact 
to the public land use by the average family. The track record of most 
NLCS units and designations indicates this has already happed in a big 
way according to people living within and next to NLCS units.
    I encourage you to not go forward with the NLCS system. No matter 
how well intentioned the reality of what some want from the NLCS system 
will hurt cooperative and innovative management and the fundamentals of 
the Steens Act and many other areas.

Sincerely,

Fred I. Otley
                                 ______
                                 
    [The statement submitted for the record by Ms. Capps 
follows:]

        Statement of The Honorable Lois Capps, a Representative 
                in Congress from the State of California

    Thank you, Mr. Chairman.
    As a proud cosponsor of H.R. 2016,1 want to thank you for holding a 
hearing on this legislation to codify the National Landscape 
Conservation System.
    The NLCS consists of all areas the BLM administers for conservation 
purposes, including national monuments, outstanding natural areas, 
wilderness areas, wild and scenic rivers and other remarkable 
landscapes on our public lands.
    The idea behind grouping all of these areas into one system is to 
increase public awareness of the importance of these lands. It's also 
to highlight how BLM is conserving their cultural, historical, 
scientific, and ecological values.
    Within my own congressional district, the NLCS encompasses several 
nationally significant areas, including the California Coastal Monument 
and the Carrizo Plain National Monument.
    I have also worked to designate the Piedras Blancas Historic Light 
Station--located in my congressional district--as an outstanding 
natural area within the NLCS. The House recently approved my 
legislation, and I hope it will be signed into law very soon.
    As you know, the Interior Department established the NLCS 
administratively in 2000. As a result, it does not have the permanence 
that it would have if enacted legislatively.
    By codifying the NLCS, we'll help increase the attention to these 
important, congressionally protected areas. And we'll help ensure that 
the system remains a high priority within the BLM.
    Mr. Chairman, it's important to note that this bill does not create 
any new management authority and does not change how any of the units 
in the system are managed. Grazing rights, water rights, and public 
access are unchanged.
    This bill is needed step toward improving the management of the 
lands that comprise the NLCS.
    I want to thank the Chairman for his leadership on this issue, and 
I hope we will have an opportunity to move this bipartisan bill through 
the Committee and House as quickly as possible.
    I yield back.
                                 ______
                                 
    Mr. Grijalva.Mr. Young, would you like to make an opening 
statement?
    Mr. Young. Mr. Chairman, I appreciate you having the 
hearing, especially having the witness from Alaska. There are 
some issues about this legislation that I can support but we 
are deeply concerned in Alaska and the effect upon agreements 
that were reached primarily with native lands and the Alaskan 
National Lands Act.
    Agreements and deals were cut and made and I am somewhat--
would like you to consider and work with me on trying to make 
sure that we don't have to have two bites at the apple that 
would directly affect the State of Alaska and directly affect 
especially the Native Land Claims Act itself, and that is my 
biggest concern right now.
    Mr. Grijalva. Mr. Young, rest assured that it is not the 
intent of the legislation to undermine the two Acts that you 
mentioned and more than willing and happy to work with you and 
your office to clarify and substantiate those two points.
    Mr. Young. I thank the gentlemen.
    Mr. Grijalva. Let me begin. Thank you very much. It is a 
distinguished panel indeed and very happy that you are with us 
today. Let me begin with the first panelist, Mr. Bill Meadows, 
President of The Wilderness Society. Sir, five minutes of oral 
testimony and then whatever, the full text of your testimony 
will be made part of the record. Mr. Meadows.

             STATEMENT OF BILL MEADOWS, PRESIDENT, 
                     THE WILDERNESS SOCIETY

    Mr. Meadows. Thank you, Mr. Chairman. Thank you committee 
members. It is a privilege to be here testifying before the 
House Natural Resource Subcommittee on National Parks, Forest 
and Public Lands on H.R. 2016, the National Landscape 
Conservation System Act. I am Bill Meadows, President of The 
Wilderness Society. I would like to also ask the committee's 
indulgence and enter into the record a letter from a coalition 
of 47 organizations in support of this legislation.
    Mr. Grijalva. Without objection.
    Mr. Meadows. Since 1935 The Wilderness Society has worked 
to ensure that future generations will enjoy as we do today the 
clean air, water, wildlife, beauty and opportunities for 
recreation and renewal that pristine forests, rivers, deserts 
and mountains provide. We represent a quarter of a million 
Americans throughout the country who are investing their legacy 
of wild places. We welcome the opportunity to comment on the 
historic importance of the National Landscape Conservation 
System Act.
    The National Landscape Conservation System is a public 
lands system like no other. It is composed of BLM managed land 
and waters designated for conservation by Congress or the 
President, including national conservation areas, wild and 
scenic rivers, as well as national monuments, wilderness areas 
and other special places.
    These landscapes with innumerable natural and cultural 
resource values ensure invaluable educational and recreational 
opportunities for current and future generations. The 
conservation system provides unique opportunities for solitude 
and adventure, where visitors can create their own experiences.
    While constituting only 10 percent of the BLM lands and 
waters, the system accommodates a third of the BLM recreation 
use. The system facilitates diverse recreational and 
educational experiences such as famed rafting in California's 
north fork of the American River, exploring how ancient 
cultures lived on the landscapes in Arizona's Agua Fria 
National Monument, hiking on the Continental Divide National 
Scenic Trail, mountain biking in Colorado's McInnis Canyons, 
and backpacking and wildlife viewing pportunities in the 
system's many, many wilderness areas.
    Protected areas such as the national conservation areas and 
wilderness areas offer many economic benefits to neighboring 
communities. Because conservation system visitor centers are 
designed to be located in gateway communities, the landscapes 
within the system remain protected and surrounding communities 
receive the economic benefits of increased visitation to these 
wonderful places. The system also provides outstanding 
opportunities for research and outdoor education. BLM staff 
have shared with us their excitement about the many research 
projects that the conservation system lands offer.
    The system is also well known for cultural resources 
including those in the Canyon of the Ancients National 
Monument, which contains the largest concentration of known 
archeological sites in the Nation. The BLM's conservation 
system also encompasses important wildlife habitat, allowing 
for wildlife to thrive in healthy ecosystems. Conservation 
system lands and waters provide habitat for many threatened and 
endangered species as well. For example, while constituting 
only 10 percent of the BLM lands, the conservation system 
protects 30 percent of suitable desert tortoise habit on BLM 
land, 73 percent of peninsula bighorn sheep critical habitat on 
BLM lands, and 54 percent of the California condor range on BLM 
lands.
    We believe it critical for Congress to acknowledge the 
importance of these lands and waters. This legislation will 
ensure that the natural and cultural resources for which these 
magnificent places were designated will be preserved in 
perpetuity for the American people to discover and appreciate. 
A diversity of Americans have shown support for these places 
and numerous organizations have spoken out to demonstrate their 
support.
    The Wilderness Society has enjoyed being a leader in the 
conservation system alliance, a coalition of more than 50 
conservation historic preservation, faith-based recreation and 
business groups. These groups represent millions of Americans 
Nationwide and together have been working nationally and within 
local communities to foster stewardship of the conservation 
system.
    Seven years ago this month, the Interior Department 
administratively designated this unique system of public lands. 
I was excited that the BLM was tasked with ensuring that the 
crown jewels under their management, their most outstanding 
lands and waters would be managed as a system for conversation 
purposes. We are delighted today that Congress has the 
foresight to ensure permanent protection for these landscapes 
through straightforward legislation that will simply give the 
system the permanent authorization it deserves.
    I again want to thank the committee for discussing this 
important legislation and look forward to working with Congress 
to marshal the bill through passage. Please let me know if you 
need any additional information for the committee. Thank you 
again for your foresight, Mr. Chairman.
    [The prepared statement of Mr. Meadows follows:]

            Statement of The Honorable William H. Meadows, 
                   President, The Wilderness Society

    Thank you for the opportunity to testify before the House Natural 
Resources Subcommittee on National Parks, Forests and Public Lands on 
H.R. 2016, the National Landscape Conservation System Act. I am Bill 
Meadows, President of The Wilderness Society. Since 1935, The 
Wilderness Society has worked to ensure that future generations will 
enjoy, as we do today, the clean air and water, wildlife, beauty and 
opportunities for recreation and renewal that pristine forests, rivers, 
deserts and mountains provide. We represent a quarter of a million 
Americans throughout the country who are investing in their legacy of 
wild places. We welcome the opportunity to comment on the historic 
importance of the National Landscape Conservation System Act.
    The National Landscape Conservation System is a public lands system 
like no other. It is composed of BLM-managed lands and waters 
designated for conservation by Congress or the President, including 
National Conservation Areas and Wild and Scenic Rivers, as well as 
National Monuments, wilderness areas and other special places. These 
landscapes with innumerable natural and cultural resource values ensure 
invaluable educational and recreational opportunities for current and 
future generations. The Conservation System provides unique 
opportunities for solitude and adventure where visitors can create 
their own experiences. While constituting only 10% of BLM lands and 
waters, the System accommodates a third of BLM's recreation use. The 
System facilitates diverse recreational and educational experiences, 
such as famed rafting in California's North Fork of the American River, 
exploring how ancient cultures lived on the landscape in Arizona's Agua 
Fria National Monument, hiking on the Continental Divide National 
Scenic Trail, mountain biking in Colorado's McInnis Canyons National 
Conservation Area, and backpacking and wildlife viewing opportunities 
in the System's many wilderness areas.
    Protected areas such as National Conservation Areas and wilderness 
areas offer many economic benefits to neighboring communities. Because 
Conservation System visitor centers are designed to be located in 
gateway communities, the landscapes within the System remain protected 
and surrounding communities receive the economic benefits of increased 
visitation to these wonderful places. The System also provides 
outstanding opportunities for research and outdoor education. BLM staff 
have shared with us their excitement about the many research projects 
that Conservation System lands offer. The System is also well known for 
its cultural resources, including those in Canyons of the Ancients 
National Monument, which contains the largest concentration of known 
archaeological sites in the nation.
    The BLM's Conservation System also encompasses important wildlife 
habitat, allowing for wildlife to thrive in healthy ecosystems. 
Conservation System lands and waters provide habitat for many 
threatened and endangered species as well. For example, while 
constituting only 10% of BLM lands, the Conservation System protects 
30% of suitable desert tortoise habitat on BLM land, 73% of Peninsular 
Bighorn Sheep Critical Habitat on BLM lands, and 54% of the California 
Condor range on BLM lands.
    We think it critical for Congress to acknowledge the importance of 
these lands and waters. This legislation will ensure that the natural 
and cultural resources for which these magnificent places were 
designated will be preserved in perpetuity for the American people to 
discover and appreciate.
    A diversity of Americans has shown support for these places, and 
numerous organizations have spoken out to demonstrate this support. The 
Wilderness Society has enjoyed being a leader in the Conservation 
System Alliance, a coalition of more than fifty conservation, historic 
preservation, faith-based, recreation and business groups. These groups 
represent millions of Americans nationwide and together, have been 
working nationally and within local communities to foster stewardship 
of the Conservation System.
    Seven years ago this month, the Interior Department 
administratively designated this unique system of public lands. I was 
excited that the BLM was tasked with ensuring that the crown jewels 
under their management, their most outstanding lands and waters, would 
be managed as a system for conservation purposes. We are delighted 
today that the Congress has the foresight to ensure permanent 
protection for these landscapes through straightforward legislation 
that will simply give the System the permanent authorization it 
deserves.
    I again want to thank the committee for discussing this important 
legislation and look forward to working with Congress to marshal the 
bill towards passage. Please be sure to let me know if you need 
additional information that could be of assistance. Thank you again for 
your foresight in discussing this legislation, and for the opportunity 
to testify before the committee.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6021.001
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T6021.002
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T6021.003
                                 
    .epsMr. Grijalva. Thank you, sir. Let me turn to Mr. 
Richard Moe, President, National Trust for Historic 
Preservation. Welcome, and your testimony, sir.

             STATEMENT OF RICHARD MOE, PRESIDENT, 
            NATIONAL TRUST FOR HISTORIC PRESERVATION

    Mr. Moe. Thank you, Mr. Chairman, very much for holding 
this hearing and for inviting the National Trust to testify 
here today in support of your bill, H.R. 2016, a bill that 
would recognize the National Landscape Conservation System, 
lands that really comprise the crown jewels of the BLM 
inventory. The National Trust is very pleased and grateful that 
you, Mr. Chairman, together with Representatives Bono, Renzi, 
and Moran, are leading the effort to codify this system.
    The National Landscape Conservation System, as my 
colleague, Mr. Meadows, has said, is a network of last places, 
the very last places where you can experience the history and 
the wild beauty of the American West. It brings together the 
crown jewels, literally, of BLM's 264 million acres. With more 
than 866 individual units, it comprises 10 percent of the total 
land administered by BLM. And I think it is fair to say that in 
terms of the natural and cultural resources contained, these 
are the most significant lands in BLM.
    H.R. 2016 is very simple legislation that would codify the 
system which has been administratively supported by recent 
Presidents but has not yet received a congressional stamp of 
approval, which is what this bill would do. And I am very 
pleased to know the Bush administration is supporting this 
legislation.
    The system currently exists as an administrative function, 
which could be changed under any future administration. And 
codification would provide it with the additional recognition 
that it deserves. Americans, I believe, want these conservation 
lands preserved, but only Congress can give them the official 
stamp of approval that they need and deserve. Codification will 
recognize a single unifying system to which these extraordinary 
lands will belong, raising the profile of these outstanding 
areas instead of each unit standing alone.
    Like many Americans, I thought for a long time that 
historic preservation was just about saving grand historic and 
architectural landmarks. There is no question that is a large 
part of what preservation is about. But the more time I have 
spent in the West, and I have spent a good deal of time in the 
West, the more I have realized that preservation is about more 
than that. It is also about the very first imprints that man 
made on the land, the rock art, the cliff dwellings, the 
pueblos, the kivas, and the other remnants of the earliest 
civilizations that flourished there. These cultural resources 
represent the opening chapters in the story of what has become 
America. They represent the heritage of the first Americans, 
and thus are part of our heritage as well.
    Mr. Chairman, so I urge your support for this important 
legislation. Official statutory status would raise the 
recognition of these unique cultural and natural resources. 
That does not mean that the BLM must abandon its traditional 
multiple-use mandate. On the contrary, clearly, people should 
continue to have wide access to them and be able to enjoy them. 
In fact, codification of the conservation system would not 
impact private in-holdings or lands managed by other agencies, 
would not alter existing oil and gas or grazing leases or other 
grandfathered uses, would not limit public access or activities 
such as fishing and hunting, or in any way affect units that 
are co-managed with other Federal agencies, as only BLM lands 
would be included in the system. And it would not affect the 
underlying enabling legislation for individual units.
    The National Landscape Conservation System includes 
landscapes that allow us to see the West through the eyes of 
the original inhabitants or as it appeared to the first 
European explorers and settlers. They also include the tangible 
remains of thousands of years of human interaction with the 
land, ranging from the ruins of prehistoric Native American 
pueblos to the wagon ruts left by western-bound pioneers and 
the remnants of mine shafts and farmhouses left by those who 
sought to make a living out of the rock and soil of the Western 
frontier.
    Whether natural or cultural, these resources open windows 
to the past, offering a glimpse, often the only glimpse 
available to us, of the people who were here before us, the 
land they found here, and the lives they lived on.
    H.R. 2016 will permanently establish perhaps the last great 
American system of protected lands. By enacting codifying 
legislation, Congress will ensure that the systems will be 
permanent and an enduring legacy of the West's natural and 
cultural heritage for future generations.
    Thank you again, Mr. Chairman, for your leadership.
    Mr. Grijalva. Thank you for your testimony. I appreciate it 
very much.
    [The prepared statement of Mr. Moe follows:]

                 Statement of Richard Moe, President, 
              The National Trust for Historic Preservation

    Mr. Chairman and members of the Subcommittee, my name is Richard 
Moe and I am the President of the National Trust for Historic 
Preservation. I am speaking to you today in support of H.R. 2016, a 
bill that would recognize the National Landscape Conservation System, 
lands that comprise the crown jewels of the Bureau of Land Management 
(BLM) inventory. The National Trust is very pleased and grateful to the 
Chairman and Representatives Bono, Moran and Renzi for leading the 
effort to codify the Conservation System and I urge the Members of the 
Sub-Committee to support this measure.
Background on the National Trust
    For more than 50 years, the National Trust for Historic 
Preservation has been helping to protect the nation's historic 
resources. Chartered by Congress in 1949, the National Trust is a 
private, nonprofit membership organization dedicated to protecting the 
irreplaceable. Recipient of the National Humanities Medal, the Trust 
leads a vigorous preservation movement that is saving the best of our 
past for the future by preserving America's diverse historic places and 
revitalizing communities. Its Washington, DC headquarters staff, six 
regional offices and 29 historic sites work with the Trust's quarter-
million members and thousands of local community groups in all 50 
states. Its mission has expanded since its founding in 1949 just as the 
need for historic preservation has grown. When historic places are 
destroyed or allowed to deteriorate we lose a part of our past forever.
H.R. 2016 and the Conservation System
    H.R. 2016 provides an important Congressional stamp of approval by 
affording the BLM's National Landscape Conservation System permanent 
statutory recognition. Like many Americans, I thought for a long time 
that historic preservation was just about saving grand historic and 
architectural landmarks. There is no question that this is part of what 
preservation is all about. But the more time I have spent in the West, 
the more I have realized that preservation is much more than that. It 
is also about the very first imprints that man made on the land--the 
rock art, cliff dwellings, pueblos, kivas and other remnants of the 
earliest civilizations that flourished there. These cultural resources, 
mostly found in the West, represent the opening chapters in the story 
of America. They represent the heritage of the first Americans and thus 
are part of our heritage as well. Not all of these tremendous places 
are in the Conservation System's inventory, but those that are 
represent the top tier of this country's acreage under the Bureau of 
Land Management.
    The National Landscape Conservation System is a network of the last 
places where you can experience the history and wild beauty of the 
American West. The 26-million-acre System was established by the 
Secretary of the Interior in 2000 to recognize and protect the best of 
the lands and waters managed by the Bureau of Land Management. The 
Conservation System brings together the crown jewels of BLM's 264 
million acres--specifically, all the agency's National Monuments, 
National Conservation Areas, Wild and Scenic Rivers, National Scenic 
and Historic Trails, Wilderness, and Wilderness Study Areas. With more 
than 866 individual units, it comprises 10 percent of the land managed 
by the BLM.
    Formal codification would provide the System with the heightened 
recognition it deserves. Without authorization, there currently is no 
guarantee that the System will be around five years from now.
Icons of the American Experience
    This month we celebrate the 400th anniversary of the founding of 
Jamestown, the first permanent settlement in English-speaking America. 
But, for thousands of years before the first Europeans arrived, there 
were people on this continent who represented highly developed 
civilizations and who were proficient in art, architecture, agriculture 
and astronomy. These were the first Americans, and their story is also 
part of our common heritage. The National Landscape Conservation System 
contains a number of important areas rich in artifacts from these 
civilizations. Let me share with you two examples.
    Canyons of the Ancients National Monument lies in the far 
southwestern corner of Colorado. The mesas and canyons of this place 
encompass an incredibly rich collection of archaeological sites. More 
than 6,000 have been recorded, and thousands more are believed to 
exist--up to 300 sites per square mile in some areas, the highest known 
density in the United States. The full sweep of the region's history 
can be traced in this landscape--from the early ranchers whose 
descendants still live here, all the way back to the ancient hunters 
who crossed the area 10,000 years ago. I wish every American could 
experience Canyons of the Ancients. There is no other place like it.
    The Agua Fria National Monument is located 40 miles north of 
Phoenix. While it's not nearly as large as Canyons of the Ancients, 
Agua Fria is abundantly rich in archaeological resources, including 
more than 130 pueblo sites, stone forts, terraced agricultural fields 
and a stunning array of rock art. Scientists have linked many of these 
sites to the Perry Mesa Tradition, a previously unknown culture that 
flourished here from 500 to 700 years ago. More recent history is 
reflected in the remnants of Basque sheepherders' camps, mining 
structures and military sites--all scattered across a landscape that 
makes the monument a scenic, as well as cultural, treasure.
    I urge your support of the legislation before the Subcommittee 
today. Congress should codify the Conservation System. Official 
statutory basis would raise recognition of the unique archeological and 
cultural resources of the Conservation System. This does not mean that 
BLM must abandon its traditional multiple-use mandate. Clearly, people 
should have wide access to BLM lands and be able to enjoy them. In 
fact, Codification of the Conservation System would not impact private 
in-holdings or lands managed by other agencies; alter existing oil and 
gas or grazing leases or other grandfathered uses; limit public access 
or activities such as fishing and hunting; or in any way affect units 
that are co-managed with other federal agencies, as only BLM lands 
would be included in the System. It would not affect the underlying 
enabling legislation for individual units.
Conclusion
    The National Landscape Conservation System includes landscapes that 
allow us to see the West through the eyes of its original inhabitants, 
or as it appeared to the first European explorers and settlers. It also 
includes the tangible remains of thousands of years of human 
interaction with the land, ranging from the ruins of prehistoric Native 
American pueblos to the wagon ruts left by westward-bound pioneers and 
the remnants of mineshafts and farmhouses left by those who sought to 
make a living out of the rock and soil of the Western frontier. Whether 
natural or cultural, these resources open windows to the past, offering 
a glimpse--often the only glimpse available to us--of the people who 
were here before us, the land they found here and the lives they lived 
on it.
    H.R. 2016 will Congressionally recognize perhaps the last great 
American system of protected lands. By enacting codifying legislation, 
Congress will ensure the System's permanence and an enduring legacy of 
the West's natural and cultural heritage for future generations.
                                 ______
                                 
    Mr. Grijalva. And let me turn to Ms. Cindy Deacon Williams, 
Director of Aquatic Science and Education Programs, National 
Center for Conservation Science and Policy. Welcome. And your 
testimony, please.

STATEMENT OF CINDY DEACON WILLIAMS, DIRECTOR OF AQUATIC SCIENCE 
   AND EDUCATION PROGRAMS, NATIONAL CENTER FOR CONSERVATION 
                       SCIENCE AND POLICY

    Ms. Williams. Thank you very much, Mr. Chairman, and 
members of the Subcommittee. I am delighted to be here today to 
talk to you about this important piece of legislation. I will 
make four points in today's testimony.
    First, as you heard from almost everyone else who has been 
up here so far today, the lands encompassed within the 
conservation system have great value. I would like to make the 
point that they also have not just great value in general, but 
that they have great scientific value, and that that value is 
intrinsic. They include many important cultural, archeological, 
social, paleontological, geological, and biological resources.
    Extensive evidence of 13,000 years of human history can be 
found on BLM-administered lands. And scientific study of these 
resources is providing important insights into how people, 
ranging from the prehistoric native nations to the 19th and 
20th century pioneers, lived on and with the land. Study of 
fossils found on BLM-administered lands is providing insight 
into the evolution of plant and animal communities and the 
responses of ecosystems to global changes. Those insights are 
likely to be of use as we face those global changes that are 
looming in our future.
    As a biologist I, of course, am most impressed by the 
numerous unique plant and animal species that are found on BLM-
administered lands, including both at-risk species and 
ecosystems and those that are not at any risk at all.
    I will lean a little bit on my own back yard, on the 
Cascade-Siskiyou National Monument. We have recently documented 
114 different species of butterfly on the Cascade-Siskiyou. And 
that is a concentration unheard of anywhere else in North 
America. We have also identified four freshwater mollusks, and 
found the highest concentration of macroinvertebrates in the 
whole Cascade area. What is a macroinvertebrate? Those are 
those water bugs that, if you are an angler, you are 
particularly interested in because of their role in the food 
chain for the fish that you like to catch. This amazingly high 
diversity of macroinvertebrates found 62 different species in a 
single ripple. I have been a biologist and a fisheries 
biologist for 30 years and have never, ever come across 
anything like that elsewhere.
    The second point that I would like to make is that the 
design concept of the conservation system increases the 
scientific value that is inherent in those lands. It now seems 
just common sense that important archeological sites can't be 
understood if they are limited to a half-acre enclosure in a 
parking lot, much less likely that they would survive the 
attention of vandals.
    No one would expect a critical population of plants to 
survive if it is surrounded by thousands of acres that are 
infested with an exotic invasive weed. Seven years ago, with 
the administrative establishment of the National Landscape 
Conservation System, that truth that has now been grounded 
solidly in conservation biology was recognized. And the system 
was set up administratively with the idea that it should 
protect and allow an expansion of human knowledge through the 
study of entire ecosystems and archeological communities. This 
was a fundamental shift that is very, very important from a 
scientific perspective.
    The third point that I would like to make is that the 
conservation system does provide significant opportunities to 
increase the sum of human scientific knowledge. It provides us 
opportunities both to investigate fundamental questions that 
are core to our way of dealing with the world in front of us 
over the long term, and also to conduct applied research that 
is immediately relevant to management on Federal lands. On the 
Cascade-Siskiyou we are engaged in an extensive collaborative 
research opportunity right now that involves a total of 25 
different research studies, some of them that our organization 
is leading, and some that are being led by the BLM, but all of 
which are cooperative in nature.
    The fourth point is that congressional recognition of the 
conservation system will improve the scientific returns to 
society from these lands. Permanency will trigger a maturation 
of the national perspective that over time will make it 
possible for the conservation system to be recognized within 
the agency as an important and cherished responsibility.
    A systemwide viewpoint also is likely to trigger 
researchers to tackle broader issues like climate change and 
invasive species, and encourage managers to share and apply the 
scientific results on an agencywide basis. Permanency also is, 
frankly, likely to increase the attention that is paid to these 
resources by researchers. There is no question that the 
National Landscape Conservation System contains resources of 
scientific interest, and securing permanent protection will 
return those values to society at a much increased rate.
    A wise man once noted that if what is unique about being 
human is our ability to know, then every time we destroy an 
opportunity to know, we destroy an opportunity to be human. 
Permanent protection of the landscape system is an important 
step not only for conservation of the resources but for 
protecting our opportunity to be human. Thank you.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Ms. Williams follows:]

Statement of Cindy Deacon Williams, M.S., Senior Scientist and Director 
   of Aquatic Science, and Conservation Education Programs, National 
                Center for Conservation Science & Policy

    Chairman Grijalva and committee members, thank you for this 
opportunity to testify in support of H.R. 2016, a bill that would 
acknowledge the national significance of scientifically important lands 
administered by the Bureau of Land Management (BLM) by recognizing the 
National Landscape Conservation System to conserve, protect, and 
restore them.
    My name is Cindy Deacon Williams. I am Director of Aquatic Science 
and Conservation Education Programs for the National Center for 
Conservation Science & Policy, a science-based conservation 
organization in Ashland, OR. I have been a research scientist and 
policy analyst for nearly 30 years, including a four-year period in the 
mid-1990s during which I worked for the USDA Forest Service on federal 
lands management programs and policies. My organization currently is 
completing seven scientific studies on the Cascade-Siskiyou National 
Monument, a unit of the Conservation System located in southwest 
Oregon.
    I will make four main points in today's testimony:
    1.  The lands encompassed within Conservation System have great 
intrinsic scientific value,
    2.  The design of the Conservation System increases its scientific 
value,
    3.  The Conservation System provides significant opportunities to 
increase our scientific knowledge,
    4.  Congressional recognition of the System, with a coherent 
National purpose, will increase the scientific returns to society from 
these lands.
The 26-million-acre National Landscape Conservation System Encompasses 
        Many Resources with Outstanding Scientific Value
    Despite a past reputation as the ``lands no one wanted,'' the lands 
administered by the Bureau of Land Management include many important 
cultural, archeological, social, paleontological, geological and 
biological resources. When it was administratively created in 2000, the 
National Landscape Conservation System collected some of the most 
notable of these lands (Vanasselt and Layke 2006). For example:
    <bullet>  Cultural: Extensive evidence of 13,000 years of human 
history can be found on BLM-administered lands. Scientific examination 
and study of these resources is providing insight into how people, 
ranging from prehistoric Native Americans to 19th and 20th century 
pioneers, lived on and with the land. Archaeologists estimate there are 
likely to be 4.5 million cultural sites on all BLM-administered lands.
    <bullet>  Paleontological: Fossils found on BLM-administered lands 
provide important insight into the evolution of plant and animal 
communities, the systematic relationship between species, and the 
response of ecosystems to global changes in their environment. The 
understandings gained from study of these paleontological resources can 
help us predict impacts and responses likely to occur in our future and 
that of our grandchildren in the face of current global changes.
    <bullet>  Biological: Numerous unique plant and animal species are 
found on BLM-administered lands, including 228 plant and animal species 
listed as threatened or endangered and more than 1,500 additional 
``sensitive'' species that are at some risk due to a reduction in the 
number of individuals or a naturally limited distribution. In addition, 
BLM administers 144,000 miles of streamside riparian areas and 13 
million acres of wetlands--providing water resources that hold an 
especially critical place in the ecological web of life, supporting 
hundreds of other species not at risk of extinction, such as pronghorn 
antelope, mule deer, bighorn sheep, elk, and numerous birds.
The Cascade-Siskiyou National Monument--an illustration of the 
        biological richness to be found within the Conservation System.
    As a biologist, I must admit that my particular interest lies with 
exploring and understanding the wealth of biological resources to be 
found on Conservation System lands. In my own backyard, the nearly 
53,000 acre Cascade-Siskiyou National Monument has many nationally 
unique fish and wildlife communities, amply illustrating the biological 
richness to be found on Conservation System lands.
    This Monument is considered a unique ``biological crossroads,'' 
linking the botanically rich Siskiyous with the Cascades. It is home to 
rare fish and aquatic species, some of which only recently have been 
discovered by scientists. The Monument's rich botanical diversity is 
associated with an extraordinary richness of butterflies unique in 
western North America, 114 species recently were recorded by 
scientists. The Monument also supports notable aquatic diversity, with 
nine freshwater mollusks whose entire distribution is limited primarily 
to the Monument's springs and streams (Frest and Johannes 1999) and, on 
Dutch Oven Creek where 62 different taxa were collected from a single 
site, a higher diversity of aquatic macroinvertebrates (insects, 
snails, etc.) than previously had been recorded from anywhere in the 
Klamath Mountains Ecoregion.
The ``Design Concept'' of the National Landscape Conservation System 
        Increases Its Scientific Value
    When the National Landscape Conservation System was 
administratively created in June of 2000, it was established with the 
idea that the Conservation System should protect--and allow an 
expansion of human knowledge through the study of--entire ecosystems 
and archeological communities. This was a fundamental departure from 
the past practice of protecting and studying small tracts that 
encompass the core portion of the object of interest while excluding 
critical, albeit more peripheral, components.
    This founding concept reflects experience with the frustrations of 
past attempts to protect important cultural and scientific resources 
for posterity. In retrospect, it appears to be ``just common sense'' 
that an important archeological site cannot be understood if it stands 
as a 1/2-acre exclosure in a parking lot, and reasonable to assume such 
a site would be unlikely to survive the propensity of vandals to cause 
havoc. Similarly, no one today would be likely to expect a critical 
population of native plants to survive and continue to support its 
dependent butterfly populations if it is surrounded by a thousand acres 
overrun by an invasive exotic weed.
    This important sum of the parts strategy also demonstrates 
understandings regarding the importance of an ecosystem approach that 
were gained from developments within the field of conservation biology. 
We now know that subpopulations of a species are unlikely to survive 
through time if they are artificially isolated from other portions of 
the species. Maintaining connections between subpopulations is vital as 
it provides an important, almost strategic insurance policy for species 
that might otherwise become extirpated as a result of flood, fire, 
hurricane, drought or other natural or human-caused disturbance (Hanski 
and Gilpin 1997, Williams and Williams 2004)--when isolated, the 
threats facing a population are more likely to ``overwhelm in detail.''
    My childhood and early professional years were colored by a perfect 
illustration of how expensive it can be to think too narrowly. In 1952, 
President Harry Truman designated Devils Hole, located in southwestern 
Nevada, as a disjunct part of Death Valley National Monument. The 
proclamation included a water-filled cavern--sporting unique geological 
characteristics and a species of fish found nowhere else in the world--
and a mere 40 acres that were carefully ``confined to the smallest 
area'' around Devils Hole where the President could draw a line. In the 
1960s, the BLM disposed of most federal land in the area. Subsequent 
battles to conserve the biological and geological objects of scientific 
interest in Devils Hole from the ecological impact of successive 
agricultural and residential development were inevitable--the original 
designation focused on the core feature of the ecosystem and not the 
ecosystem itself. Ultimately, Congress authorized purchase of 13,320 
acres from private willing sellers and the incorporation of additional 
acres still administered by the BLM to encompass the ecologically and 
hydrologically connected Ash Meadows area into a coherent ecosystem 
management unit to be managed in conjunction with the originally 
designated 40 acres immediately around Devils Hole; a step not 
recognized as necessary to preserve and learn from the ecosystem's 
geological and biological resources. When all was said and done, the 
expansion to incorporate Devils Hole's critical peripheral components 
made the exercise unnecessarily costly, both socially and financially, 
and nearly led to the extinction of the fish (Deacon and Williams 
1991).
    Fortunately, the original administrative concept for the National 
Landscape Conservation System explicitly recognized these potential 
administrative and ecological hurdles. Wisely, the proposed legislation 
is drafted so as to permanently honor that science-based design concept 
in its establishment of the Conservation System.
The Lands Within the National Landscape Conservation System Provide 
        Significant Opportunities to Increase our Scientific Knowledge
    The wide range of cultural, archeological, social, paleontological, 
geological and biological resources within the Conservation System, 
aptly acknowledged as representing some of the nation's crown jewels, 
provide many research opportunities, including:
    <bullet>  Options to examine fundamental questions and generate 
answers to underlying questions of interest and value to society's 
understanding of the world, and
    <bullet>  Opportunities to conduct applied research designed to 
answer questions relevant to improving management of other federal 
lands.
    Research currently occurring on Conservation System lands touches 
upon geology and paleontology; hydrology and climate; restoration and 
rangeland health; archaeology; conservation education; sustainable 
architecture; public involvement and partnerships; pinyon-juniper 
woodlands ecosystem dynamics and vegetative management; native plants; 
exotic cheatgrass propagation; and groundwater, water quality, and 
aquatic ecosystems. Some of the fundamental research is unraveling 
ancient stories set in the world of dinosaurs; other research is 
exploring the results of movement of ancient waters through red rock 
sandstone and is finding analogs to hematite concretions on Mars. Some 
of the applied research is examining socio-economic trends and 
transitions, other research looks at the role of climate and land use 
on ecosystem dynamics, the impact of past management practices, and 
trends in recreational impacts in the backcountry and dispersed areas. 
In all, the amount of information shared, knowledge gained, and 
understanding secured due to scientific investigations on Conservation 
System lands--including both that rooted in the scientific world and 
that anchored in differences of social perspective--is impressive and 
has contributed to improvements in management of federal lands and 
helped foster scientific and community partnerships. And, those 
benefits continue to accrue as the sharing of information, knowledge, 
and understanding grows.
    In southwestern Oregon, we hope to secure the benefits that accrue 
from shared scientific knowledge and understanding--that is, improved 
resource management informed by a shared, credible information base--as 
a result of extensive focused research now occurring on the Cascade-
Siskiyou National Monument.
    Several years ago, as part of an effort to foster collaborative 
research, the BLM has been conducting 18 field studies and monitoring 
projects on the Cascade-Siskiyou. In addition, from 2003-06 the World 
Wildlife Fund's Klamath-Siskiyou Regional Field Office coordinated a 
multi-taxa collaborative investigation of the Monument's objects of 
biological interest. That work since has been transferred to the 
National Center for Conservation Science & Policy for completion. Our 
studies are focused on:
    <bullet>  Bird monitoring, with stations along 25 point count 
routes in mixed conifer and oak woodlands;
    <bullet>  Small-mammals, with 16 study sites in mixed conifer and 
oak woodlands;
    <bullet>  Aquatic snails, with distributional analysis examining 57 
springs and seeps;
    <bullet>  Stream and riparian habitat, water temperature, and 
aquatic invertebrates, with multiple sites at six creeks (including 
Dutch Oven, East Fork Camp, Jenny, Keene, Mill, and South Fork Keene);
    <bullet>  Greene's Mariposa lily, with examination of more than 80 
population clusters in oak woodlands;
    <bullet>  Butterfly richness and composition, with 27 transects in 
mixed conifer and oak woodlands; and
    <bullet>  Natural ecosystem dynamics.
    Once the results of these 25 research projects complete scientific 
peer-review, they will comprise the most comprehensive scientific 
understanding of an ecosystem ever enjoyed by a BLM manager, the 
scientific community, and the public.
Providing Permanent Protection to the Conservation System Will Increase 
        the Value of These Resources to Society
    H.R. 2016 will provide critical and long overdue congressional 
recognition for the National Landscape Conservation System. 
Importantly, this legislation will establish a coherent, much-needed 
system-wide identity. Permanency undoubtedly will trigger the 
maturation of a national perspective for the Conservation System that 
is ``bigger'' than the BLM districts that are separately charged with 
management of individual units.
    An ``enlarged'' system-wide perspective will have subtle impacts on 
BLM field managers and their staff that, over time, will make it 
possible for the Conservation System to be recognized within the agency 
as an important and cherished responsibility. From a scientific 
perspective, a system-wide viewpoint likely will induce researchers to 
examine broad issues (e.g., climate change, invasive species) and 
encourage managers to share and apply the results of these scientific 
findings on an agency-wide basis--as well as allow researchers and 
managers to continue to benefit from the pursuit of answers to unit-
specific research questions.
    Finally, the permanent establishment of the Conservation System is 
likely to increase the attention paid to the lands by research 
institutions, researchers, policy-makers and the general public--all of 
which are likely to create a circumstance in which society as a whole 
will receive a greater benefit.
Conclusion
    The National Landscape Conservation System contains resources of 
national scientific importance. Securing permanent recognition of the 
Conservation System is critical to ensuring these initial steps will 
continue to accrue benefits to the BLM and the nation. With permanent 
recognition we will have an opportunity to enjoy and learn the most we 
can from these natural and cultural treasures.
    A wise man once noted that if what is unique about being human is 
our ability to know, then every time we destroy an opportunity to know, 
we destroy an opportunity to be human. Permanent protection of the 
National Landscape Conservation System is an important step, not only 
in conservation of the valuable cultural and scientific resources found 
on Conservation System lands, but also in protecting the opportunity 
for our species to be human.
Literature Cited
Deacon, J.E. and C.D. Williams. 1991. Ash Meadows and the Legacy of the 
        Devils Hole Pupfish. Pp. 69-92, In: W.L. Minckley and J.E. 
        Deacon, eds. Battle Against Extinction: native fish management 
        in the American West. University of Arizona Press. Tucson, AZ.
Frest, T.J. and E.J. Johannes. 1999. Field guide to survey and manage 
        freshwater mollusk species. Bureau of Land Management, Oregon 
        State Office, Portland, OR 117 pp.
Hanski, I.A. and M.E. Gilpin. 1997. Metapopulation Biology: ecology, 
        genetics, and evolution. Academic Press.
Vanasselt, W. and C. Layke. 2006. Protecting the Best of the West. 
        Issues in Science and Technology. Spring 2006: 43-52.
Williams, J.E. and C.D. Williams. 2004. Oversimplified habitats and 
        oversimplified solutions in our search for sustainable 
        freshwater fisheries. American Fisheries Society Symposium 43: 
        67-89.
                                 ______
                                 
    Mr. Grijalva. Let me now turn to Mr. Randy Gray, former 
mayor of Great Falls, Montana. Welcome, sir, Mr. Mayor, and 
your testimony.

            STATEMENT OF RANDY GRAY, FORMER MAYOR, 
                      GREAT FALLS, MONTANA

    Mr. Gray. Mr. Chairman and members of the committee, thanks 
for the occasion to testify before this subcommittee on H.R. 
2016, the National Landscape Conservation System Act.
    I am Randy Gray. I am a resident and former three-term 
mayor of the great city of Great Falls, Montana. I was also a 
city commissioner of that town, and I have served as a trustee 
for the CM Russell Museum in that same town. And I have helped 
form, and, for many years, served on the board of the Great 
Falls Development Authority, which is an economic--regional 
economic development entity in our area that has generated a 
substantial amount of economic opportunity throughout the north 
central Montana area.
    Great Falls is a wonderful town that is fortunate to have a 
number of these special places protected by the National 
Landscape Conservation System close by. They are in our back 
yard. We are proud to be a gateway community for the BLM's 
conservation system, and appreciate the opportunity to comment 
on the significance of this proposed act.
    The National Landscape Conservation System is comprised of 
lands and waters under the BLM's management that have been 
congressionally and Presidentially designated, including 
national monuments, national scenic and historic trails, 
wilderness areas, and other important areas. These landscapes 
have many essential values, including opportunities for 
scientific research and education, recreation, and, yes, local 
economic benefit. These are places where people in my town and 
other Western communities can enjoy occasions as simple as 
family picnics and historical exploration, and as exciting as 
multi-day float trips and backpacking adventures.
    Residents of our town and, importantly, visitors from all 
over the State of Montana, from all over the country, and in 
fact from all over the world, can go out to these places to 
enjoy themselves, discover themselves, get lost in the 
protected areas that allow for visitors to experience and study 
the American West as it was viewed by America's first residents 
and explorers.
    I would like to take this opportunity to offer my personal 
perspective on what makes the BLM's conservation system an 
invaluable benefit to my city and other gateway communities 
across the West. We are lucky enough to have three conservation 
system units in our vicinity: the Wild and Scenic Missouri 
River, the Lewis and Clark National Historic Trail, and the 
Upper Missouri Breaks National Monument. The river and trail 
pass through my community, and the monument is located within a 
short drive of my community. The Nation recently celebrated the 
bicentennial of Lewis and Clark's famed expedition across 
America, and Great Falls was a proud host of one of the 10 
national signature events for the Lewis and Clark bicentennial 
celebration. That celebration brought vast numbers of tourists 
through our town and visitors. Today visitors to the Missouri 
River can experience the same rugged river and stunning vistas 
noted by Lewis and Clark on their epic journey.
    I am myself both a hunter and a canoeist, and I personally 
enjoy these areas that I just spoke of. They are our national 
and historic treasures. And many other people in my community 
also enjoy those amenities. These special places have made 
Great Falls an attractive community for people to establish 
homes and businesses. The proximity of conservation system 
lands and waters makes our town an attractive location for 
businesses and residents looking to enjoy our quality of life. 
These protected areas have been important to diversifying the 
economy of north central Montana, and have helped make our 
State an attractive place to live.
    In my time as mayor, it became apparent to me that these 
communities that are close to these sort of natural and 
historic treasures have enjoyed economic prosperity. And as 
mayor, many residents of our town discussed with me the 
benefits of these places to our own local economy. While we 
continue to benefit from important traditional resource-
dependent industries, our economy has been diversified by 
tourism focused around conservation system lands and waters.
    Very importantly, and perhaps more importantly, well-paying 
service sector jobs are brought by businesses attracted to the 
labor pool that is comprised of those who choose to settle near 
these natural amenities. These jobs ensure that our community 
can enjoy suitable--or, pardon me, sustainable economic 
prosperity, and that our children will benefit from a diverse 
local economy where employers and employees are equally 
attracted to our natural and historic resources.
    In an extensive academic study completed in 2004, the 
Sonoran Institute determined that personal income, adjusted for 
inflation, grows faster in counties with a higher percentage of 
public land ownership, such as BLM or Forest Service lands, as 
compared to counties with a much smaller percentage of their 
land base in public ownership. Furthermore, Western counties 
with public lands protected from development show a greater 
increase in personal income. The study determined that counties 
where more than 60 percent of the Federal public lands are in 
some sort of a protected status, i.e. national park, national 
monument, have grown 66 percent faster from 1970 to 2000 than 
counties where the same percentage of public lands had no 
permanent protected status.
    The National Landscape Conservation System Act is 
straightforward legislation that will simply ensure that these 
lands and waters have the permanent recognition they deserve. 
Congress has the opportunity to ensure that future generations 
of Montanans and other Americans can enjoy the unique 
experiences of the conservation system and the economic 
opportunities they create.
    As the legacy of President Teddy Roosevelt has 
demonstrated, permanent recognition for protected public lands 
has proven time and time again to be of great public benefit, 
and a forward-looking decision that future generations will 
thank us for.
    I want to thank the committee again for considering this 
important legislation, and hope that Congress can shepherd the 
bill forward toward passage. Thank you again for the 
opportunity to testify on this bill.
    Mr. Grijalva. Thank you very much, Mr. Mayor.
    [The prepared statement of Mr. Gray follows:]

                        Statement of Randy Gray

    Thank you for the occasion to testify before the House Natural 
Resources Subcommittee on National Parks, Forests and Public Lands on 
H.R. 2016, the National Landscape Conservation System Act. I am Randy 
Gray, resident and former mayor of Great Falls, Montana. I was also a 
city commissioner, trustee to the CM Russell Museum, and helped form 
and for many years served on the board of the Great Falls Development 
Authority, a regional economic development entity that has generated 
economic opportunity throughout the Great Falls trade region.
    Great Falls is a wonderful town that is fortunate to have a number 
of special places protected by the National Landscape Conservation 
System close by. We are proud to be a gateway community for the BLM's 
Conservation System and appreciate the opportunity to comment on the 
significance of the National Landscape Conservation System Act.
    The National Landscape Conservation System is comprised of lands 
and waters under the BLM's management that have been congressionally 
and presidentially designated, including National Monuments, National 
Scenic and Historic Trails, wilderness areas and other important 
places. These landscapes have many essential values including 
opportunities for scientific research, education, recreation, and local 
economic benefits. These are places where people in Great Falls and 
other western communities can enjoy occasions as simple as family 
picnics and historical exploration and as exciting as multi-day float 
trips and backpacking adventures. Residents of our town and, 
importantly, visitors from around Montana, the country and the world go 
to enjoy themselves, discover themselves, and get lost in protected 
areas that allow for visitors to experience and study the American West 
as it was viewed by America's first residents and explorers.
    I would like to take this opportunity to offer my personal 
perspective on what makes the BLM's Conservation System an invaluable 
benefit to my city and other gateway communities. We are lucky enough 
to have three Conservation System units in our vicinity: the Wild and 
Scenic Missouri River, the Lewis and Clark National Historic Trail, and 
the Upper Missouri River Breaks National Monument. The river and trail 
pass through our community and the Monument is located within a short 
drive. These outstanding resources allow not only for recreation, but 
for exploration of our nation's history. The nation recently celebrated 
the bicentennial of Lewis and Clark's famed expedition through the 
area, and Great Falls was proud host of one of the ten national Lewis 
and Clark signature events, which brought a number of visitors through 
town. Today, visitors to the Missouri River can experience the same 
rugged river and stunning vistas noted by Lewis and Clark on their epic 
journey. It truly is both wild and scenic. I am both a hunter and 
canoeist and enjoy these natural and historical treasures myself, along 
with so many in our community.
    These special places have made Great Falls an attractive community 
for people to establish homes and businesses and to enjoy their 
benefits and experience the big sky country as it was meant to be. The 
proximity of Conservation System lands and waters makes our town an 
attractive location for businesses and residents looking to enjoy our 
quality of life. These protected areas have been important to 
diversifying the economy of north central Montana and have helped make 
our state an attractive place to live. In my time as mayor, it became 
apparent to me that communities such as mine closest to these natural 
and historical treasures have enjoyed economic prosperity. And as 
mayor, many residents discussed with me the benefits of these places to 
the local economy. While we continue to benefit from important 
traditional resource-dependent industries, our economy has been 
diversified by tourism focused around Conservation System lands and 
waters. Very importantly, well-paying service sector jobs are brought 
by businesses attracted to the labor pool that chooses to settle near 
these amenities. These jobs ensure that our community can enjoy 
sustainable economic prosperity and that our children will benefit from 
a diverse local economy where employers and employees are equally 
attracted to our natural and historical resources.
    In an extensive academic study complete in 2004, the Sonoran 
Institute determined that personal income, adjusted for inflation, 
grows faster in counties with a higher percentage of public land 
ownership, such as BLM or Forest Service lands, as compared to counties 
with a much smaller percentage of their land base in public ownership. 
Furthermore, western counties with public lands protected from 
development show a greater increase in personal income. The study 
determined that ``counties where more than 60 percent of the federal 
public lands are in protected status (...National Parks...National 
Monuments, etc.) have grown 66 percent faster from 1970 to 2000 than 
counties where the same percentage of public land had no permanent 
protective status.''
    The National Landscape Conservation System Act is straightforward 
legislation that will simply ensure that these lands and waters will 
have the permanent recognition they deserve. Congress has the 
opportunity to ensure that future generations of Montanans and other 
Americans can enjoy the unique experiences of the Conservation System, 
and the economic opportunities they offer. As the legacy of President 
Teddy Roosevelt has demonstrated, permanent recognition of protected 
public lands has proven time and time again to be of great public 
benefit, and a forward-looking decision that future generations will 
thank us for.
    I want to thank the committee again for considering this important 
legislation and hope that Congress can shepherd the bill towards 
passage. Thank you again for the opportunity to testify before the 
committee on this important bill.4
                                 ______
                                 
    Mr. Grijalva. Let me turn now to Mr. Orie Williams, chief 
executive officer of Doyon Limited. Sir, your testimony, and 
thank you for being here.

  STATEMENT OF ORIE WILLIAMS, CHIEF EXECUTIVE OFFICER, DOYON 
                            LIMITED

    Mr. Williams. Thank you, Mr. Chairman and members of the 
Subcommittee. Thank you for the opportunity to testify on H.R. 
2016, a bill to establish the National Landscape Conservation 
System. I would especially like to thank my Congressman, 
Congressman Young, who is the Ranking Republican Member of the 
full committee, for his invitation to me to testify.
    My name is Orie Williams. I am the CEO of Doyon Limited, an 
Alaska Native Regional Corporation, based in Fairbanks, Alaska. 
Doyon is one of 13 Alaska National Regional Corporations formed 
by Congress under the Alaska Native Claims Settlement Act. 
Doyon has more than 14,000 Alaska Native tribal shareholders, 
and the rights to 12.5 million acres of land in the interior of 
Alaska. Our mission is to provide economic and social 
opportunity for our people, to strengthen our native way of 
life, and to protect and enhance our land and resources.
    We have worked with Congress and the Federal Government to 
meet the economic development promises made in the enactment of 
ANCSA in 1971 to settle the claims of Alaska Natives over use 
of Alaska lands. Doyon and several of the other corporations 
have lands that border on major areas of land covered by this 
legislation.
    Under the current law, Alaskans would have a right to 
access through these areas, including under Title XI of the 
Alaska National Interest Lands Conservation Act. These rights 
of access meet the promise of ANCSA to provide for economic use 
of ANCSA lands. These were hard-won rights, secured by our 
Congressman, the Ranking Republican on this committee, 
Congressman Young.
    In fact, there are several major portions of law, including 
the ``No More'' clause in ANILCA, that provides specific rights 
that would be affected by this legislation. Under the ``No 
More'' clause, the ability of the President to withdraw vast 
amounts of Federal lands using monument designation was 
prevented by act of Congress. That protection should not be 
lost to a locking-in of special management for wilderness study 
areas which have never been approved by Congress.
    We have a long and positive relationship with Federal land 
management agencies. Perhaps because we are interested in 
continuing that positive relationship, we are concerned about 
the burden placed on the BLM by this legislation. We have no 
objection to the current National Landscape Conservation 
System, but it is important to note that that is built upon a 
recognition that existing law and regulation applicable to each 
individual unit shall remain in place.
    There is no overriding systemwide standard. The existing 
NLCS expressly recognizes that the NLCS does not create any new 
legal protections. This guarantee of specific land management 
law and regulation is missing from the legislation before this 
committee. We understand that the congressional sponsors want 
to add a statutory underpinning to the system, but the current 
administrative system created by the BLM in 2000 is largely 
untested. We have not seen any justification to change the 
management laws and regulations over these 800 units that are 
currently in the system and provide new and overriding 
conservation requirements.
    The administration has testified that it supports the 
legislation because the legislation recognizes that individual 
management standards remain applicable to individual units. We 
don't see that language in this bill. It is important to 
understand the sweep of this legislation. If enacted without 
change, it would cover over 800 separate areas of land, 
totaling approximately 50 million acres of land, some of which 
has never been designated by Congress for special management. 
For a new system of management to apply to these lands, the 
public and interested parties in and around these BLM areas 
should receive far greater notice that management could be 
changed in one bill in Congress.
    Millions of people around this country, especially in 
Western States, will be affected by this legislation. As land 
managers charged with protecting our heritage, our lands, and 
providing economic opportunity, we understand the burden of 
balancing multiple uses of important lands. In our view, land 
management requirements must be clear, and, in almost every 
event for Federal lands, should be specified by Congress when 
considering the best balance of uses for that particular land 
use. It is hard to see that the rules set by section 3 of this 
legislation for all the new systems considers what is best for 
each land area to be covered by the bill.
    Our fundamental concern with H.R. 2016 is that it appears 
to set a new land management requirement for the 800 areas 
subject to the bill. Subsection 3(c) is simply not clear as to 
which laws and regulations apply to Federal lands that would be 
within the system. Unlike the current administrative program, 
which expressly states that each unit is to be managed under 
the laws and regulations applicable to that unit, subsection 
3(c) provides no standard for each individual unit or land 
area, and instead puts in place a general systemwide standard. 
Further, it is not clear if the law and regulation applicable 
to any component, such as a wilderness area, should be 
applicable to any other unit in the system, such as a monument. 
These are drastically different types of units, subject to much 
different management.
    Congress should not be vague in specifying what is the 
management standard. In our view, the current management 
standard, one that is applied on a unit-by-unit basis, based on 
enacted laws establishing the unit, is the proper standard. If 
Congress now intends to provide a new and sweeping standard 
applicable to all these lands, it must be clear about that 
intent.
    Finally, it is very important to clearly specify if and how 
existing Federal land management laws are being changed. The 
provisions of the Federal Land Policy and Management Act of 
1976 and the major Alaska Lands Acts, ANILCA and ANCSA, were 
extremely hard fought and in many cases bargained for here in 
Congress, for all stakeholders. The Alaska Native community 
gave up many rights and access to traditional lands to reach 
agreements on these lands acts. We are now living with and 
respecting these laws. Congress should, too. If they are to be 
changed, particularly for a large amount of Federal lands, we 
believe that it is the duty of Congress to fully inform the 
affected communities and consult with tribes and ANCs. Since 
that is impossible on short notice, we ask that Congress 
respect the hard-fought Alaska lands battles of the past, and 
remove Alaska lands from this bill or, at a minimum, provide in 
the bill language that the bill does not modify, amend, or 
supersede the existing land right uses, requirements, and 
responsibilities of FLPMA, ANCSA, or ANILCA.
    My time is up. I thank you for the opportunity.
    Mr. Grijalva. Thank you, sir.
    [The prepared statement of Mr. Williams follows:]

             Statement of Orie Williams, CEO, Doyon Limited

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity to testify on H.R. 2016, a bill to establish the National 
Landscape Conservation System (NLCS). I would especially like to thank 
my Congressman, Don Young, who is also the Ranking Republican Member of 
the Full Committee for his invitation to me to testify today. My name 
is Orie Williams, I am the CEO of Doyon Limited, an Alaska Native 
Corporation. I appear here today on behalf of Doyon's more than 14,000 
members and Tribal shareholders.
    Doyon is one of thirteen Alaska Native Regional Corporations 
(ANCs), formed under congressional direction of the Alaska Native 
Claims Settlement Act. Doyon has more than 14,000 Alaska Native 
shareholders, and we are proud of our record on behalf of those 
shareholders. Our mission is to provide economic and social opportunity 
for our people, to strengthen our Native way of life and to protect and 
enhance our land and resources. We have worked with Congress and the 
federal government to meet the economic development promises made in 
the enactment of ANCSA in 1971 to settle the claims of Alaska Natives 
over use of Alaska lands.
    Doyon and several of the other Corporations have lands that border 
on major areas of land covered by this legislation----the Steese 
National Conservation area, the Central Arctic Management Area (which 
is a wilderness study area), and several Wild and Scenic Rivers. Under 
current law, Alaskans would have a right of access through these areas, 
including under Title XI of the Alaska National Interest Lands 
Conservation Act. These rights of access meet the promise of ANSCA to 
provide for economic use of ANCSA lands. These were hard-won rights, 
secured by our Congressman, the Ranking Republican of this Committee, 
Congressman Young. In fact, there are several major portions of law, 
including the ``No More'' clause in ANILCA, that provide specific 
rights that would be affected by this legislation. Under the ``No 
More'' clause, the ability of the President to withdraw vast amounts of 
federal lands using Monument designation was prevented by Act of 
Congress. That protection should not be lost to a ``locking in'' of 
special management for wilderness study areas, which have never been 
approved by Congress.
    We have a long and positive relationship with federal land 
management agencies, including the Bureau of Land Management. However, 
perhaps because we are interested in continuing that positive 
relationship, we are concerned about the burden placed on the BLM by 
this legislation. We have no objection to the current National 
Landscape Conservation System, but it is important to note that that is 
built upon a recognition that existing law and regulation applicable to 
each individual unit shall remain in place. There is no overriding 
``system-wide'' standard. The existing NLCS expressly recognizes that 
``the NLCS does not create any new legal protections.'' This guarantee 
of specific land management law and regulation is missing from the 
legislation before this committee.
    We understand that the Congressional sponsors want to add a 
statutory underpinning to this system. But the current administrative 
system is new since it was created by the BLM in 2000. It is largely 
untested. We have not seen any justification to change the management 
laws and regulations over these 800 units that are currently in the 
administrative system, and provide new and overriding conservation 
requirements. The Administration has testified that it supports this 
legislation because the legislation recognizes that individual 
management standards remain applicable to individual units. We don't 
see that language in the bill.
    It is important to understand the sweep of this legislation. If 
enacted, without change, it would cover over 800 separate areas of 
land, totaling approximately 50 million acres of land, some of which 
(wilderness study areas and most National Monuments) have never been 
designated by Congress for special management. It applies to 161 
wilderness areas, totaling more than 6 million acres of land; 600 
wilderness study areas, totaling almost 18 million acres; 38 Wild and 
Scenic Rivers, covering over 2,000 miles; Ten Historic Trails; 17 
National Conservation Areas, totaling 15.4 million acres; 15 national 
Monuments, totaling 4.8 million acres, Two National Scenic Trails and a 
number of areas called ``outstanding natural areas'', which are 
currently not listed in the NLCS. For a new system of management to 
apply to these lands, the public and interested parties in and around 
these BLM areas should receive far greater notice that management could 
be changed in one bill in Congress. Millions of people around this 
country, especially in western states, will be affected by this 
legislation.
    As land managers charged with protecting our heritage, our lands, 
and providing economic opportunity, we understand the burden of 
balancing multiple uses of important lands. In our view, land 
management requirements must be clear, and, in almost every event for 
federal lands, should be specified by Congress when considering the 
best balance of uses for that particular land area. It is hard to see 
that the rules set by section 3 of this legislation for all of the new 
system considers what is best for each land area to be covered by the 
bill.
    Our fundamental concern with H.R. 2016 is that it appears to set a 
new land management requirement for the 800+ areas subject to the bill. 
Subsection 3c is simply not clear as to which laws and regulations 
apply to the federal lands that would be within the new system. 
Subsection 3c requires the Secretary to ``manage the system in 
accordance with any applicable law or regulation relating to any 
component of the system'' and in a manner that protects the values for 
which the components of the system were designated. This standard would 
inevitably leave the land managers with great uncertainty, and lead 
only to prolonged litigation. Unlike the current administrative program 
which expressly states that each unit is to be managed under the laws 
and regulations applicable to that unit, subsection 3c provides no 
standard for each individual unit or land area, and instead puts in 
place a general, system-wide standard. Further, it is not clear if the 
law and regulation applicable to any component, such as a wilderness 
area, should be applicable to any other unit in the system, such as a 
Monument. These are drastically different types of units, subject to 
much different management. Congress should not be vague in specifying 
what is the management standard. In our view, the current management 
standard, one that is applied on a unit-by-unit basis, based on enacted 
laws establishing the unit, is the proper standard. If Congress now 
intends to provide a new and sweeping standard applicable to all of 
these lands, it must be clear about that intent.
    Finally, it is very important to clearly specify if and how 
existing federal land management laws are being changed. The provisions 
of the Federal Land Policy and Management Act of 1976 (FLPMA) and the 
major Alaska Lands Acts, ANILCA and ANCSA, were extremely hard fought, 
and in many cases, bargained for, here in Congress and with 
stakeholders. The Alaska Native community gave up many rights and 
access to traditional lands to reach agreement on these Lands Acts. We 
are now living with and respecting these laws, Congress should too. If 
they are to be changed, particularly for a large amount of federal 
lands, we believe that it is the duty of Congress to fully inform the 
affected communities. Since that is impossible on short notice, we ask 
that Congress respect the hard-fought Alaska lands battles of the past, 
and remove Alaska lands from this bill or, at minimum, provide in bill 
language that the bill does not modify, amend, or supersede the 
existing land use rights, requirements and responsibilities of FLPMA, 
ANCSA or ANILCA.
    We understand the intent of the sponsors is to provide for a 
cohesive system for the BLM, but not undermine or modify FLPMA, ANILCA 
or other federal laws. If that is the case, that intent needs to be 
more clearly stated in bill language, and to become part of the federal 
law. Without a statutory clarification concerning the impact of this 
legislation on FLPMA, and rights under other major federal laws such as 
the access rights under Title XI of ANILCA, there will be many years of 
litigation and uncertainty for the communities and people who live, 
work and rely on these areas every day. We ask, respectfully, that the 
management standard to be used for lands within the bill recognize and 
defer to existing laws applicable to those units. We believe that is 
the congressional intent, as we understand it. A simple clarifying 
amendment could accomplish that result.
    If, on the other hand, the Committee and sponsors seek to change 
FLPMA and other federal land management laws on a system-wide basis, we 
ask again, respectfully, that you do so only after full notice to 
communities around the country which would be impacted by such a 
change.
    Thank you for the opportunity to testify before the Subcommittee 
today. I would be pleased to answer any questions the Members of the 
Subcommittee may have.
                                 ______
                                 
    Mr. Grijalva. And for the questioning, let me turn to our 
Ranking Member, Mr. Young, for any questions you might have. 
Sir?
    Mr. Young. Thank you, Mr. Chairman, and thanks for the 
courtesy.
    Mr. Williams, thank you for your testimony. You brought out 
the points that I mentioned to the Chairman. As this 
legislation moves forward, it is crucially important to 
recognize the 365 million acres in the State of Alaska; 147 
million acres in 1980 was put aside in parks and refuges for 
the distinct use, as I heard some of the previous witnesses, 
for the wilderness experience. There is 104 million acres that 
belong to the State of Alaska. If you add that all up, there is 
295 million acres that are now in some form of restriction, 
including State parks.
    But Mr. Williams brings up a valid point. A lot of these 
decisions, especially the Alaska Natives--I was interested in 
listening to them talking about the forefathers, and the 
pueblos, etc.--we are dealing with live American Natives that 
fought the battle for 44 million acres of land. And they 
extinguished much of their rights because it was the will of 
this Congress, and we made a deal. And I am hoping that we will 
listen very carefully to Mr. Williams.
    But Mr. Williams, would the legislation, as it is proposed, 
make it more difficult to access lands selected by Doyon under 
the Settlement Act?
    Mr. Williams. Thank you, Congressman. In the areas that are 
covered by the bill, there would be a vague new management 
standard. The new system standard doesn't say anything about 
existing law, and it is not clear enough to guide BLM in 
permitting. It would be litigated. It doesn't say anything 
about ANCSA or the ANILCA Lands Act.
    To use just one example, we chose lands using our rights 
under ANCSA that bordered the Forty Mile River area. This was 
before Forty Mile even became a Wild and Scenic River. Now, if 
this legislation passes, the rights we had guaranteed under 
ANCSA and under ANILCA, Title XI of the Lands Act, are not 
clearly protected. Please don't leave unclear our rights to 
access lands promised under ANCSA.
    And, Mr. Chairman, I have a map I would like to add as part 
of the record that shows----
    Mr. Grijalva. Without objection, it will be submitted to 
the Chairman.
    Mr. Young. Mr. Williams, is Doyon the only Alaska Native 
corporation or Alaska Native Lands Settlement Act that is 
affected by this legislation?
    Mr. Williams. Thank you for the question, Congressman. No, 
Mr. Chairman and Congressman Young; because of the short notice 
of this hearing and the steamroller of this bill, we were only 
able to get ahold of the 12 ANCSA regional corporation CEOs 
groups within the last 24 hours. But within that 24-hour 
period, 7 of the 12 regional corporation CEOs have responded 
that they believe in my testimony, they support it. I am sure 
all the ANCSA CEOs do.
    Mr. Young. Mr. Chairman, again thank you, and let me 
restate what my biggest concern is. And I don't want to beg the 
issue. I was here for the Alaska National Lands Act and not the 
Native Land Claims Act itself. That passed in 1971. But they 
did reach an agreement as aboriginals. And this bill as 
written, he believes, as do the rest of my corporations up 
there, my tribes if you want to say, are deeply concerned it 
would infringe upon their rights.
    Now maybe that is not the intent of the bill, but there are 
those in the audience and those with other interest groups that 
will litigate. They will sue. And the economic rights of these 
people as we granted them, and the right of their culture will 
be denied. And that is really the forked-tongue approach that 
concerns me.
    So as we go through this process, if we can't improve this 
legislation, then at least give Alaska a chance to step aside 
because--as I mentioned--of those numbers we have, and really 
answer that question to my aboriginal people. Thank you, Mr. 
Chairman.
    Mr. Grijalva. Thank you, Mr. Young.
    Let me reiterate the opening comments I made, after your 
initial comment, that the staff and our office looks forward to 
working with you to ensure that the potential conflict that you 
see, and is not intended in the legislation, is dealt with. 
Thank you.
    Mr. Young. Mr. Chairman, before I leave, and I do have to 
leave, they are having a birthday party for me. You are invited 
to go when this hearing is over if you would like to come by. I 
am just reaching maturity age. So I have to go.
    Mr. Grijalva. Thank you. Mr. Bishop.
    Mr. Bishop. Let me just thank the witnesses who are here. I 
appreciate your coming, especially at this really late date. 
This should have been done like 6 hours ago, and I apologize 
for that. I don't know if anyone from the Department of the 
Interior is still here. I would just want to express my deep 
disappointment in the Department for sending up somebody to 
testify on the part of this bill--even though she was willing 
to do it--who was clearly in pain, who has suffered an injury.
    There are significant questions that need to be answered. 
And for the Department not to be able to have someone here who 
can actually testify without having to go through those 
personal problems is callous on the part of the Department of 
the Interior. I don't know why they did it, but I am offended 
that they would actually put her in that position, as well as 
this committee in that same position.
    The other day I had somebody come into my office talking 
about No Child Left Behind, one of my other favorite elements 
of Congress. And she told me how good it was, because No Child 
Left Behind is finally forcing her to deal with minorities in 
this particular school district. That is why they want more 
money.
    And as I was hearing this, I was thinking to myself, you 
know, what you are telling me is basically for 30 years you 
have done a lousy job or you have ignored your job, and now we 
have finally forced you to do what you are supposed to do, and 
you want to be rewarded for it. If you were doing your job, 
there would be no reason for the bill. Now if we need to force 
you to do your job, you shouldn't have the job in the first 
place.
    This reminds me of the same kind--we have been told over 
and over again that this bill will not change any of the 
management practices. I agree that that is perhaps the intent 
of this bill, and I agree that is a laudatory intent at the 
same time. And it also has to come down to the fact that if you 
don't change any of the practices, there is no need for the 
bill. If you are going to codify something, there has to be 
some systemic problem that is prohibiting you from doing what 
you want to do, rather than simply having a different name tag 
or larger room or some other personal reason for it.
    I do want to lay down the marker that I have no personal 
problem with creating this as a codified program. I do have 
problems with the language that has been initially drafted. I 
do agree with the gentleman from Alaska. The language in here 
is vague. And even though the intent is not to change any of 
the management practices, some of the language in here is 
boilerplate language from other elements within the Department 
of the Interior, who, with that same language, has been sued 
both in 1970 and 1978, and was forced to change their 
management styles and practices. Not because of the intent of 
Congress or the intent of the program, but because of the 
intent of lawsuits. That is why I do say this is a lawsuit 
waiting to happen.
    And what our intentions are, which I think are laudable, I 
am sure the Chairman is honest with his intention, and it is a 
laudable intention of not changing the management practices--
will indeed be subject to changes later on unless we clarify 
the language that is in this bill and make it specific that 
what we intend to do is indeed what we do. And right now this 
bill does not have that language in there.
    So all your comments, I appreciate them. I don't have any 
problems with your comments. I think they are just fine. We 
have some wonderful programs that are being administered by the 
BLM. They are diverse. Why you want to put all the diverse 
things into one common practice is strange, but we are doing 
it, and they are doing it in a fairly effective process.
    But at the same time, if we do actually codify this 
language for this program, then we are opening ourselves up for 
changes that will be above and beyond what anyone in this room 
claims to do or intends to do or even imagines to be possible. 
So I don't really have problems with the scope of this bill or 
the direction of this bill. I do have problems with the 
verbiage. And if the majority party will work with the 
minority, I think we will have a bill that is satisfactory to 
everyone involved. But it does depend on what the actual 
language is in this particular bill.
    I thank you for coming here. I thank you for listening to 
me rant. It wasn't my intention of doing that, but someone had 
to hear it, and you unfortunately are the last ones in the 
room. I yield back.
    Mr. Grijalva. Thank you, Mr. Bishop. And I am appreciative 
of the closing comment about working on the legislation, and 
look forward to it. And let me instruct the court reporter, if 
he will, at the end of Mr. Bishop's comments put a question 
mark? That way it is consistent with the question.
    Mr. Bishop. I will do this legitimately. How are you?
    Mr. Grijalva. Thank you.
    Let me, just to make your visit worthwhile, and also for my 
edification, ask a couple of questions. Mr. Moe, I have a co-
major in history, and I am proof of the adage that history, if 
you don't listen to history it tends to repeat itself. And I 
ended up in politics.
    But be that as it may, one of the things, and I think NLCS, 
because you spoke about it, for a long time I think much of the 
history, the focus of the history of this Nation of ours has 
been on the European settlement. And as you mentioned, the NLCS 
has an opportunity to address that situation and change. 
Jamestown is 400 years old. And some of these units, we are 
talking about human activity 4,000, 5,000, 6,000--and could you 
just expand on that?
    Mr. Moe. Thank you, Mr. Chairman. I would be happy to 
expand on that. As a student of history, I commend your insight 
for seeing that relevance. I believe the American experience 
began in the West. I spent a lot of time in the Four Corners 
area of the West, which is probably the richest archeological 
part of this country. There are more archeologists in the Four 
Corners area of the United States than anyplace in the world 
outside of Egypt. That's how rich it is. And the riches that 
they are looking for are the signs of the earliest Americans. 
You know, some of these great places of the earliest Americans 
have been preserved by the National Park Service. And places 
like Mesa Verde, Chaco Canyon, Hovenweep, other great national 
parks. But that's not the full extent of it. There is so much 
more in Canyons of the Ancients in southwestern Colorado, in 
Agua Fria in your own State, and in other great places. And 
some of these are increasingly at risk for a variety of 
reasons. And it is important to preserve these places and to 
recognize their significance, as this legislation would do, in 
order that future Americans can understand that important part 
of our history. So that's very much an important part of what 
this bill would do.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. And, Mr. Meadows, the often 
repeated question, concern, and rationale for not needing this 
legislation is that if NLCS is already protected under existing 
law, what is gained from establishing the NLCS in statute?
    Mr. Meadows. I think it is important that Congress 
recognize the power and influence it has. And I think the 
recognition--the two most important words here, I think, are 
``recognition'' and ``permanence.'' recognition that Congress 
would give the system is not lost on local communities, it is 
not lost on the BLM, it is not lost on those of us who work to 
try to protect the conservation values that are represented 
throughout these conservation units.
    The permanence is really critical, too. While we are not 
threatened today with any kind of retrenchment on conservation 
landscape--the National Landscape Conservation System--there is 
some chance that in the future, a future administration might 
not view this system in the same way. And we believe it 
important that we put down a recognition that we mark the 
importance of this system today. And we thank you and the 
committee for being willing to do that.
    Mr. Grijalva. Thank you very much.
    Ms. Williams, if you don't mind, I am going to submit--I 
have a series of questions, but time is pressing for a lot of 
reasons.
    Ms. Williams. I would be happy to respond to any of your 
questions.
    Mr. Grijalva. They deal with remote sites and why they are 
important in scientific research and various other questions. 
So if you don't mind, I will be submitting those questions to 
you, and your responses will be part of the record.
    Ms. Williams. I would be happy to respond.
    Mr. Grijalva. Mr. Mayor, back home there are monuments in 
the area, southern Arizona, near Tucson where I am from, and 
enjoy a great deal of local support. In fact, you know, there 
are always efforts to expand, to add to. But beyond that, do 
you also hear many times--and one of the witnesses that had to 
leave talked about--in his written testimony talks about the 
fact that there is no real local support for these units, these 
designations, and this effort to try to codify the system.
    Big time mayor, that's the community you come from, can you 
talk about that local support and what it means, and then the 
issue of tourism? I mean, they can't stay overnight. I mean, 
there are no hotels or eating places in these areas, so they 
are going to go somewhere.
    Mr. Gray. Mr. Chairman, thanks for the question. In 
response, if you look at the entire State of Montana, there was 
overwhelming support among the residents of Montana for the 
creation of the national monument. There is overwhelming 
support in the State of Montana for the Lewis and Clark Trail 
and for the--all aspects of this National Landscape 
Conservation System that are in our backyard.
    There are those who felt that they weren't adequately 
heard, but I had the opportunity to attend many of the public 
hearings that occurred in Montana; in fact, had the opportunity 
to introduce Secretary Babbitt when he was in my town, in Great 
Falls, Montana. And I personally witnessed Secretary Babbitt 
stand for 3 hours on the stage of the university of my town and 
personally answer every question that came in. He never shut 
the clock off. He let anybody ask any question they wanted. So 
there was ample opportunity for input. And the vast majority of 
Montanans, certainly the vast majority of people in my town, 
are supportive of these concepts.
    So I can't say it any other way than that, Mr. Chairman, is 
that I believe that from a political point of view these 
landscapes have a tremendous amount of support from people in 
Great Falls, people in Montana, and people all over the United 
States.
    Mr. Grijalva. Thank you.
    And, Mr. Williams, your testimony is noted. The issues that 
you raised, we hope as this legislation moves forward that we 
will reach some level of satisfaction for yourself and the 
concerns that you raised. And I appreciate your testimony.
    And I know Mr. Bishop has another question or comment.
    Mr. Bishop. I would.
    Mr. Gray, I appreciate the comment you just made. Are you 
aware or did you have any kind of workings with the Missouri 
Breaks National Monument?
    Mr. Gray. Yes. Yes, sir.
    Mr. Bishop. So can you just explain, as far as the 
unanimous kind of bipartisan support, why, when that was passed 
in 2001--the Montana legislature in the Senate by a vote of 38 
to 12, and in the House by a vote of 65 to 34--there was a 
bipartisan vote, passed resolutions urging opposition to the 
Missouri Breaks or the Missouri River National Monument that is 
now being administered by the BLM, or the fact that there are 
no county commissioners involved in that entire area who are 
still supportive of that national monument? That doesn't quite 
sound indicative to me of loyal happiness with what is going on 
there in Montana. Obviously there are some sectors, but I 
wouldn't call it unanimous in any degree, would you?
    Mr. Gray. No. I am sorry, Mr. Congressman, I don't believe 
I used the word ``unanimous.'' I believe I said 
``overwhelming.''
    Mr. Bishop. 38 to 12 ain't even overwhelming. You lost by 
that amount.
    Mr. Gray. Well, sir, the Governor that then supported that 
action is no longer the Governor of Montana. And that was, in 
my political opinion, one of the reasons that she no longer is 
the Governor of Montana. Montanans overwhelmingly supported 
these activities.
    Mr. Bishop. Is that why there are no county commissioners 
in that area that still support it?
    Mr. Gray. Well, it is an area that some of the county 
commissioners in fact, I think, are changing their opinions on 
how things might be out there. This landscape is now viewed as 
a very important part of diversifying the economy of north 
central Montana.
    Mr. Bishop. OK. We will let the data stand for itself. And 
I appreciate your tenacity, if not necessarily agreement with 
your veracity. But thank you, sir.
    Mr. Grijalva. Thank you very much. I want to thank the 
panel, and close with a little discussion about what the intent 
of this legislation is. And I am trying to--and thank you very 
much for your testimony, all the panels.
    The intent about these special places, these units, and 
that is that in the future--and I think Mr. Meadows mentioned 
that in the future, one of the permanencies that we would like 
to establish is that no President or administration with the 
stroke of a pen can destroy what has been set aside. And that 
is the intention. That is where we would like--that has been 
the primary motivation of this legislation, and will continue 
to be that.
    With that, let me adjourn the meeting, and thank you very 
much for being here and for your indulgence all day long. I 
appreciate it.
    [Whereupon, at 6:08 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
